<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2020

                              ----------                              


                          TUESDAY, MAY 7, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
                                                    

    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Jerry Moran (Chairman) presiding.
    Present: Senators Moran, Collins, Graham, Boozman, Capito, 
Kennedy, Rubio, Shaheen, Leahy, Reed, Coons, Schatz, Manchin, 
and Van Hollen.

                    FEDERAL BUREAU OF INVESTIGATION

                OPENING STATEMENT OF SENATOR JERRY MORAN

    Senator Moran. Good morning, everyone.
    Our subcommittee hearing on Commerce, Justice, Science, and 
Related Agencies will come to order.
    We welcome the Director of the FBI, Christopher A. Wray. 
Thank you for your presence here. Director, Senator Shaheen and 
I have decided we will forego our opening statements in order 
to enhance the chances that we can get our questions and 
questions of all of our Members answered. And we also have a 
closed session that follows this public hearing.
    Director, you and I just had a conversation with Senator 
Shaheen about Blue Mass. It is the reason for your need to 
depart. And I would take this moment on behalf of the United 
States Senate and my colleagues here today to express our 
condolences, our respect, and gratitude for those who serve our 
country in all forms of law enforcement. And we appreciate your 
service as well.
    So unless Senator Shaheen wants to say anything, we will go 
directly to your opening statement, and please proceed.
STATEMENT OF HON. CHRISTOPHER A. WRAY, DIRECTOR, 
            FEDERAL BUREAU OF INVESTIGATION
    Mr. Wray. Thank you, Mr. Chairman and Ranking Member 
Shaheen and Members of the subcommittee.
    I am honored to be here today representing the men and 
women of the FBI. Our people, nearly 37,000 of them, are the 
heart of the Bureau, and every day I see them tackling their 
jobs with perseverance, with professionalism, and with 
integrity. And I have now visited all 56 of our FBI field 
offices over the past year and a half, not just meeting with 
our folks but also meeting with State and local law enforcement 
partners for every State represented on this subcommittee, 
people in your communities, and to hear from them about the 
issues that matter most to them. And I am grateful for their 
support and their insights as we work together to keep 325 
million Americans safe and to help make our communities 
stronger.
    I want to thank this subcommittee for the funding you have 
provided in the past. Without your support, we would not be 
able to do all the important work we do. As this subcommittee 
knows, we face unprecedented threats from homegrown violent 
extremists to domestic terrorists, foreign terrorist 
organizations, hostile foreign intelligence services, cyber 
criminals, violent gangs, white collar criminals, child 
predators, and the list just goes on and on. All of these 
threats are ever-changing. We have got to be even more agile 
and predictive. We have also got to help our law enforcement 
partners in your districts, across the country, and around the 
world. And we cannot do any of that without your support.
    There are lots areas where we need help, but there are four 
areas in particular where I am particularly interested in 
working with this subcommittee to ensure that we have 
sufficient resources: first, cyber and analytics; second, 
transnational organized crime; third, counterintelligence; and 
fourth technology investments.
    Given the extensive threats we face, the expectations for 
the FBI have never been higher. The men and women of the FBI in 
my experience continue to meet and exceed those expectations 
every day. So thank you for this opportunity to discuss their 
work.
    I look forward to your questions.
    [The statement follows:]
             Prepared Statement of Hon. Christopher A. Wray
    Good morning Chairman Moran, Ranking Member Shaheen, and Members of 
the subcommittee.
    Thank you for inviting me to appear before you today. On behalf of 
the men and women of the Federal Bureau of Investigation (``FBI''), I 
want to thank this Committee for its substantial support in the fiscal 
year 2019 Appropriation. The resources provided will allow the FBI to 
combat some of the most egregious national security and criminal 
threats; continue to partner with State, local, Tribal and other 
Federal agencies in a task force environment; and endeavor to keep pace 
with technological advancements employed by our adversaries.
    The funding provided is also imperative in allowing the FBI to 
retain its most precious assets--its personnel. As the Committee is 
aware, FBI personnel are the life-force of the organization--they work 
tirelessly to combat some of the most complex and serious national 
security threats and crime problems challenging the Nation's 
intelligence and law enforcement communities.
    Today, I appear before you on behalf of the men and women who 
tackle these threats and challenges every day. I am extremely proud of 
their service and commitment to the FBI's mission and to ensuring the 
safety and security of communities throughout our Nation. On their 
behalf, I would like to express my appreciation for the support you 
have given them in the past, ask for your continued support in the 
future, and pledge to be the best possible stewards of the resources 
you provide.
    I would like to begin by providing a brief overview of the FBI's 
fiscal year 2020 budget request, and then follow with a short 
discussion of key threats and challenges that we face, both as a nation 
and as an organization.
                fiscal year 2020 budget request overview
    The fiscal year 2020 budget request proposes a total of $9.31 
billion in direct budget authority to carry out the FBI's national 
security, criminal law enforcement, and criminal justice services 
missions. The request includes a total of $9.26 billion for Salaries 
and Expenses, which will support 35,558 positions (13,201 Special 
Agents, 3,115 Intelligence Analysts, and 19,242 professional staff), 
and $51.9 million for Construction.
    As a result of this budget being formulated before the Consolidated 
Appropriations Act, 2019, was passed, it was built utilizing the prior 
year enacted level as a starting point. The request does, however, 
include six program enhancements totaling $144.9 million. These 
enhancements are proposed to meet critical requirements and close gaps 
in operational capabilities, including: $70.5 million to enhance cyber 
investigative capabilities; $18.3 million to mitigate threats from 
foreign intelligence services; $16.6 million to support the National 
Vetting Center, $18.2 million to target and disrupt transnational 
organized crime financial and Darknet networks; $4.2 million to 
increase the capacity to perform National Instant Criminal Background 
Check System (``NICS'') services; and $17.2 million to enhance the 
FBI's ability to render safe a weapon of mass destruction.
    The request also includes two rescissions from funding appropriated 
in prior fiscal years--$60 million from the FBI's Salaries and Expenses 
account and $159 million from the FBI's Construction account.
    When compared against the fiscal year 2019 enacted level, the 
fiscal year 2020 request level represents a total decrease of $267.8 
million, including an increase of $65.3 million in the Salaries and 
Expenses account and a reduction of $333.1 million in the FBI's 
Construction account.
                       key threats and challenges
    This Committee has provided critical resources for the FBI to 
become what it is today--a threat-focused, intelligence-driven 
organization. Our Nation continues to face a multitude of serious and 
evolving threats ranging from homegrown violent extremists to hostile 
foreign intelligence services and operatives; from sophisticated cyber-
based attacks to Internet facilitated sexual exploitation of children; 
from violent gangs and criminal organizations to public corruption and 
corporate fraud. Keeping pace with these threats is a significant 
challenge for the FBI. As an organization, we must be able to stay 
current with constantly evolving technologies. Our adversaries--
terrorists, foreign intelligence services, and criminals--take 
advantage of modern technology, including the Internet and social 
media, to facilitate illegal activities, recruit followers, encourage 
terrorist attacks and other illicit actions, and to disperse 
information on building improvised explosive devices and other means to 
attack the U.S. The breadth of these threats and challenges are as 
complex as any time in our history. And the consequences of not 
responding to and countering threats and challenges have never been 
greater.
    The support of this Committee in helping the FBI do its part in 
facing and thwarting these threats and challenges is greatly 
appreciated. That support is allowing us to establish strong 
capabilities and capacities for assessing threats, sharing 
intelligence, leveraging key technologies, and--in some respects, most 
importantly--hiring some of the best to serve as Special Agents, 
Intelligence Analysts, and professional staff. We have built and are 
continuously enhancing a workforce that possesses the skills and 
knowledge to deal with the complex threats and challenges we face 
today--and tomorrow. We are building a leadership cadre that views 
change and transformation as a positive tool for keeping the FBI 
focused on the key threats facing our Nation.
    Today's FBI is a national security and law enforcement organization 
that uses, collects, and shares intelligence in everything we do. Each 
FBI employee understands that, to defeat the key threats facing our 
Nation, we must constantly strive to be more efficient and more 
effective. Just as our adversaries continue to evolve, so, too, must 
the FBI. We live in a time of acute and persistent terrorist and 
criminal threats to our national security, our economy, and indeed our 
communities. These diverse threats underscore the complexity and 
breadth of the FBI's mission: to protect the American people and uphold 
the Constitution of the United States.
                           national security
Counterterrorism
    Preventing terrorist attacks remains the FBI's top priority. 
However, the threat posed by terrorism--both international terrorism 
(``IT'') and domestic terrorism (``DT'')--has evolved significantly 
since 9/11.
    The most persistent threats to the Nation and to U.S. interests 
abroad are homegrown violent extremists (``HVEs''), domestic 
terrorists, and foreign terrorist organizations (``FTOs''). The IT 
threat to the U.S. has expanded from sophisticated, externally directed 
FTO plots to include individual attacks carried out by HVEs who are 
inspired by designated terrorist organizations. We remain concerned 
that groups such as the Islamic State of Iraq and ash-Sham (``ISIS'') 
and al Qaeda have the intent to carry out large-scale attacks in the 
U.S.
    The FBI assesses HVEs are the greatest terrorism threat to the 
homeland. These individuals are global jihad-inspired individuals who 
are in the U.S., have been radicalized primarily in the U.S., and are 
not receiving individualized direction from FTOs. We, along with our 
law enforcement partners, face significant challenges in identifying 
and disrupting HVEs. This is due, in part, to their lack of a direct 
connection with an FTO, an ability to rapidly mobilize, and the use of 
encrypted communications.
    In recent years, prolific use of social media by FTOs has greatly 
enhanced their ability to disseminate messages. We have also been 
confronting a surge in terrorist propaganda and training available via 
the Internet and social media. Due to online recruitment and 
indoctrination, FTOs are no longer dependent on finding ways to get 
terrorist operatives into the United States to recruit and carry out 
acts of terrorism. Terrorists in ungoverned spaces--both physical and 
cyber--readily disseminate propaganda and training materials to attract 
easily influenced individuals around the world to their cause. They 
motivate these individuals to act at home or encourage them to travel. 
This is a significant transformation from the terrorist threat our 
Nation faced a decade ago.
    Despite significant losses of territory, ISIS remains relentless 
and ruthless in its campaign of violence against the West and has 
aggressively promoted its hateful message, attracting like-minded 
extremists. The message is not tailored solely to those who overtly 
express signs of radicalization. It is seen by many who click through 
the Internet every day, receive social media notifications, and 
participate in social networks. Ultimately, many of the individuals 
drawn to ISIS seek a sense of belonging. Echoing other terrorist 
groups, ISIS has advocated for lone offender attacks in Western 
countries. Recent ISIS videos and propaganda have specifically 
advocated for attacks against soldiers, law enforcement, and 
intelligence community personnel.
    Many foreign terrorist organizations use various digital 
communication platforms to reach individuals they believe may be 
susceptible and sympathetic to extremist messages. However, no group 
has been as successful at drawing people into its perverse ideology as 
ISIS, who has proven dangerously competent at employing such tools. 
ISIS uses high-quality, traditional media platforms, as well as 
widespread social media campaigns to propagate its extremist ideology. 
With the broad distribution of social media, terrorists can spot, 
assess, recruit, and radicalize vulnerable persons of all ages in the 
U.S. either to travel or to conduct an attack on the homeland. Through 
the Internet, terrorists overseas now have direct access to our local 
communities to target and recruit our citizens and spread the message 
of radicalization faster than was imagined just a few years ago.
    The threats posed by foreign fighters, including those recruited 
from the U.S., are very dynamic. We will continue working to identify 
individuals who seek to join the ranks of foreign fighters traveling in 
support of ISIS, those foreign fighters who may attempt to return to 
the United States, and HVEs who may aspire to attack the United States 
from within.
    ISIS is not the only terrorist group of concern. Al Qaeda maintains 
its desire for large-scale, spectacular attacks. However, continued 
counterterrorism pressure has degraded the group, and in the near term 
al Qaeda is more likely to focus on supporting small-scale, readily 
achievable attacks against U.S. and allied interests in the 
Afghanistan/Pakistan region. Simultaneously, over the last year, 
propaganda from al Qaeda leaders seeks to inspire individuals to 
conduct their own attacks in the U.S. and the West.
    In addition to FTOs, domestic extremist movements collectively pose 
a steady threat of violence and economic harm to the United States. 
Trends within individual movements may shift, but the underlying 
drivers for domestic extremism--such as perceptions of government or 
law enforcement overreach, socio-political conditions, and reactions to 
legislative actions--remain constant. The FBI is most concerned about 
lone offender attacks, primarily shootings, as they have served as the 
dominant mode for lethal domestic extremist violence. We anticipate law 
enforcement, racial minorities, and the U.S. Government will continue 
to be significant targets for many domestic extremist movements.
    As the threat to harm the United States and U.S. interests evolves, 
we must adapt and confront these challenges, relying heavily on the 
strength of our Federal, State, local, and international partnerships. 
The FBI uses all lawful investigative techniques and methods to combat 
these terrorist threats to the United States. Along with our domestic 
and foreign partners, we are collecting and analyzing intelligence 
concerning the ongoing threat posed by foreign terrorist organizations 
and homegrown violent extremists. We continue to encourage information 
sharing, which is evidenced through our partnerships with many Federal, 
State, local, and Tribal agencies assigned to Joint Terrorism Task 
Forces around the country. Be assured, the FBI continues to strive to 
work and share information more efficiently, and to pursue a variety of 
lawful methods to help stay ahead of these threats. The FBI's fiscal 
year 2020 Request includes 48 positions (including two Special Agents) 
and $16.6 million to support technical and analytical capabilities 
related to Counterterrorism vetting efforts.
Counterintelligence
    The Nation faces a continuing threat, both traditional and 
asymmetric, from hostile foreign intelligence agencies. Traditional 
espionage, often characterized by career foreign intelligence officers 
acting as diplomats or ordinary citizens, and asymmetric espionage, 
typically carried out by students, researchers, or businesspeople 
operating front companies, is prevalent. Foreign intelligence services 
not only seek our Nation's state and military secrets, but they also 
target commercial trade secrets, research and development, and 
intellectual property, as well as insider information from the Federal 
Government, U.S. corporations, and American universities. Foreign 
intelligence services continue to employ more creative and more 
sophisticated methods to steal innovative technology, critical research 
and development data, and intellectual property, in an effort to erode 
America's economic leading edge. These illicit activities pose a 
significant threat to national security and continue to be a priority 
and focus of the FBI.
    Foreign influence operations--which include covert actions by 
foreign governments to influence U.S. political sentiment or public 
discourse--are not a new problem. But the interconnectedness of the 
modern world, combined with the anonymity of the Internet, have changed 
the nature of the threat and how the FBI and its partners must address 
it. The goal of these foreign influence operations directed against the 
United States is to spread disinformation, sow discord, and, 
ultimately, undermine confidence in our democratic institutions and 
values. Foreign influence operations have taken many forms and used 
many tactics over the years. Most widely reported these days are 
attempts by adversaries--hoping to reach a wide swath of Americans 
covertly from outside the United States--to use false personas and 
fabricated stories on social media platforms to discredit U.S. 
individuals and institutions. However, other influence operations 
include targeting U.S. officials and other U.S. persons through 
traditional intelligence tradecraft; criminal efforts to suppress 
voting and provide illegal campaign financing; cyber attacks against 
voting infrastructure, along with computer intrusions targeting elected 
officials and others; and a whole slew of other kinds of influence, 
like both overtly and covertly manipulating news stories, spreading 
disinformation, leveraging economic resources, and escalating divisive 
issues.
    Almost 2 years ago, I established the Foreign Influence Task Force 
(``FITF'') to identify and counteract malign foreign influence 
operations targeting the United States. The FITF is uniquely positioned 
to combat this threat. The task force now brings together the FBI's 
expertise across the waterfront--counterintelligence, cyber, criminal, 
and even counterterrorism--to root out and respond to foreign influence 
operations. Task force personnel work closely with other U.S. 
Government agencies and international partners concerned about foreign 
influence efforts aimed at their countries, using three key pillars. 
Currently there are open investigations with a foreign influence nexus 
spanning FBI field offices across the country. Second, we are focused 
on information and intelligence-sharing. The FBI is working closely 
with partners in the Intelligence Community and in the Federal 
Government, as well as with State and local partners, to establish a 
common operating picture. The FITF is also working with international 
partners to exchange intelligence and strategies for combating what is 
a shared threat. The third pillar of our approach is based on strong 
relationships with the private sector. Technology companies have a 
front-line responsibility to secure their own networks, products, and 
platforms. But the FBI is doing its part by providing actionable 
intelligence to better enable the private sector to address abuse of 
their platforms by foreign actors. Over the last year, the FBI has met 
with top social media and technology companies several times, provided 
them with classified briefings, and shared specific threat indicators 
and account information, so they can better monitor their own 
platforms.
    But this is not just an election-cycle threat. Our adversaries are 
continuously trying to undermine our country, whether it is election 
season or not. As a result, the FBI must remain vigilant.
    In addition to the threat posed by foreign influence, the FBI is 
also concerned about foreign investment by hostile nation states. Over 
the course of the last 7 years, foreign investment in the U.S. has more 
than doubled. Concurrent with this growth, foreign direct investment 
(``FDI'') in the U.S. has increasingly become a national security 
concern, as hostile nations leverage FDI to buy U.S. assets that will 
advance their intelligence, military, technology, and economic goals at 
the expense of U.S. national security. The Committee on Foreign 
Investment in the U.S. (``CFIUS''), an Executive Branch committee 
chaired by the Department of Treasury, was statutorily created to 
address potential risks to U.S. national security resulting from 
foreign acquisitions or mergers with U.S. companies. As part of this 
process, the FBI provides input and analysis to the National 
Intelligence Council within eight days of a CFIUS filing and a risk 
assessment to the Department of Justice within 30 days of a CFIUS 
filing. As a result of the Foreign Investment Risk Review Modernization 
Act (``FIRRMA''), which was enacted last year, the FBI anticipates its 
workload to increase dramatically.
    The fiscal year 2020 Request includes six positions (including one 
Special Agent) and $18.3 million to address the threats posed by 
foreign influence and foreign investment in the United States.
Cyber Threats
    Virtually every national security threat and crime problem the FBI 
faces is cyber-based or facilitated. We face sophisticated cyber 
threats from state-sponsored hackers, hackers for hire, organized cyber 
syndicates, and terrorists. On a daily basis, cyber-based actors seek 
our state secrets, our trade secrets, our technology, and our ideas--
things of incredible value to all of us and of great importance to the 
conduct of our government business and our national security. They seek 
to strike our critical infrastructure and to harm our economy.
    As the committee is well aware, the frequency and impact of cyber-
attacks on our Nation's private sector and government networks have 
increased dramatically in the past decade and are expected to continue 
to grow. We continue to see an increase in the scale and scope of 
reporting on malicious cyber activity that can be measured by the 
amount of corporate data stolen or deleted, personally identifiable 
information compromised, or remediation costs incurred by U.S. victims. 
Within the FBI, we are focused on the most dangerous malicious cyber 
activity: high-level intrusions by state-sponsored hackers and global 
organized crime syndicates, as well as other technically sophisticated 
attacks. FBI agents, analysts, and computer scientists are using 
technical capabilities and traditional investigative techniques--such 
as sources, court-authorized electronic surveillance, physical 
surveillance, and forensics--to fight the full range of cyber threats. 
And we continue to actively coordinate with our private and public 
partners to pierce the veil of anonymity surrounding cyber based 
crimes.
    Botnets used by cyber criminals have been responsible for billions 
of dollars in damages over the past several years. The widespread 
availability of malicious software (malware) that can create botnets 
allows individuals to leverage the combined bandwidth of thousands, if 
not millions, of compromised computers, servers, or network-ready 
devices to conduct attacks. Cyber threat actors have also increasingly 
conducted ransomware attacks against U.S. systems, encrypting data and 
rendering systems unusable--thereby victimizing individuals, 
businesses, and even public health providers.
    Cyber threats are not only increasing in size and scope, but are 
also becoming increasingly difficult to investigate. Cyber criminals 
often operate through online forums, selling illicit goods and 
services, including tools that can be used to facilitate cyber attacks. 
These criminals have also increased the sophistication of their 
schemes, which are more difficult to detect and more resilient than 
ever. Cyber threats are also becoming increasingly difficult to 
investigate. For instance, many cyber actors are based abroad or 
obfuscate their identities by using foreign infrastructure, making 
coordination with international law enforcement partners essential.
    The FBI is engaged in a myriad of efforts to combat cyber threats, 
from improving threat identification and information sharing inside and 
outside of the government to developing and retaining new talent, to 
examining the way we operate to disrupt and defeat these threats. We 
take all potential threats to public and private sector systems 
seriously and will continue to investigate and hold accountable those 
who pose a threat in cyberspace. The fiscal year 2020 Request includes 
33 positions (including three Special Agents) and $70.5 million to 
enhance cyber information-sharing abilities and increase cyber tools 
and capacities.
                            criminal threats
    We face many criminal threats, from complex white-collar fraud in 
the financial, healthcare, and housing sectors to transnational and 
regional organized criminal enterprises to violent crime and public 
corruption. Criminal organizations--domestic and international--and 
individual criminal activity represent a significant threat to our 
security and safety in communities across the Nation. A key tenet of 
protecting the Nation from those who wish to do us harm is the National 
Instant Criminal Background Check System, or NICS. The goal of NICS is 
to ensure that guns do not fall into the wrong hands, and also to 
ensure the timely transfer of firearms to eligible gun buyers. Mandated 
by the Brady Handgun Violence Prevention Act of 1993 and launched by 
the FBI on November 30, 1998, NICS is used by Federal Firearms 
Licensees (``FFLs'') to instantly determine whether a prospective buyer 
is eligible to purchase firearms. NICS receives information from tens 
of thousands of FFLs and checks to ensure that applicants do not have a 
criminal record or are not otherwise prohibited and therefore 
ineligible to purchase a firearm. In the first complete month of 
operation in 1998, a total of 892,840 firearm background checks were 
processed; in 2018, almost 2.2 million checks were processed per month.
    While most checks are completed by electronic searches of the NICS 
database within minutes, a small number of checks require examiners to 
review records and resolve missing or incomplete information before an 
application can be approved or rejected. Ensuring the timely processing 
of these inquiries is important to ensure law abiding citizens can 
exercise their right to purchase a firearm and to protect communities 
from prohibited and therefore ineligible individuals attempting to 
acquire a firearm. The FBI is currently processing a record number of 
checks, over 26 million were processed in 2018--an increase of almost 
950,000 checks. The fiscal year 2020 Request includes 40 positions and 
$4.2 million to increase the capacity to process NICS checks within the 
mandated timeframe and to meet new requirements included in the Fix 
NICS Act.
Violent Crime
    Violent crimes and gang activities exact a high toll on individuals 
and communities. Many of today's gangs are sophisticated and well 
organized and use violence to control neighborhoods, and boost their 
illegal money-making activities, which include robbery, drug and gun 
trafficking, fraud, extortion, and prostitution rings. These gangs do 
not limit their illegal activities to single jurisdictions or 
communities. The FBI is able to work across such lines, which is vital 
to the fight against violent crime in big cities and small towns across 
the Nation. Every day, FBI special agents work in partnership with 
Federal, State, local, and Tribal officers and deputies on joint task 
forces and individual investigations.
    FBI joint task forces--Violent Crime Safe Streets, Violent Gang 
Safe Streets, and Safe Trails--focus on identifying and targeting major 
groups operating as criminal enterprises. Much of the FBI criminal 
intelligence is derived from our State, local, and Tribal law 
enforcement partners, who know their communities inside and out. Joint 
task forces benefit from FBI surveillance assets, and our sources track 
these gangs to identify emerging trends. Through these multi-subject 
and multi-jurisdictional investigations, the FBI concentrates its 
efforts on high-level groups engaged in patterns of racketeering. This 
investigative model enables us to target senior gang leadership and to 
develop enterprise-based prosecutions.
    By way of example, the FBI has dedicated tremendous resources to 
combat the threat of violence posed by MS-13. The atypical nature of 
this gang has required a multi-pronged approach--we work through our 
task forces here in the U.S. while simultaneously gathering 
intelligence and aiding our international law enforcement partners. We 
do this through the FBI's Transnational Anti-Gang Task Forces 
(``TAGs''). Established in El Salvador in 2007 through the FBI's 
National Gang Task Force, Legal Attache (``Legat'') San Salvador, and 
the United States Department of State, each TAG is a fully operational 
unit responsible for the investigation of MS-13 operating in the 
northern triangle of Central America and threatening the United States. 
This program combines the expertise, resources, and jurisdiction of 
participating agencies involved in investigating and countering 
transnational criminal gang activity in the United States and Central 
America. There are now TAGs in El Salvador, Guatemala, and Honduras. 
Through these combined efforts, the FBI has achieved substantial 
success in countering the MS-13 threat across the United States and 
Central America.
    Despite these efforts, we still have work to do. There are still 
jurisdictions that are struggling. The latest Uniform Crime Reporting 
statistics gathered from the Crime in the United States, 2017 show the 
number of violent crimes in the Nation decrease by 0.2 percent compared 
with the 2016 estimate. The 2018 Preliminary Uniform Crime Report 
indicates a similar trend.
    We are committed to working with our Federal, State, local, and 
Tribal partners in a coordinated effort to reduce crime in the United 
States.
Transnational Organized Crime (``TOC'') and Opioids
    More than a decade ago, organized crime was characterized by 
hierarchical organizations, or families, that exerted influence over 
criminal activities in neighborhoods, cities, or States. But organized 
crime has changed dramatically. Today, international criminal 
enterprises run multi-national, multi-billion-dollar schemes from start 
to finish. Modern-day criminal enterprises are flat, fluid networks 
with global reach. While still engaged in many of the ``traditional'' 
organized crime activities of loan-sharking, extortion, and murder, 
modern criminal enterprises are targeting stock market fraud and 
manipulation, cyber-facilitated bank fraud and embezzlement, drug 
trafficking, identity theft, human trafficking, money laundering, alien 
smuggling, public corruption, weapons trafficking, extortion, 
kidnapping, and other illegal activities. TOC networks exploit 
legitimate institutions for critical financial and business services 
that enable the storage or transfer of illicit proceeds. Preventing and 
combating transnational organized crime demands a concentrated effort 
by the FBI and Federal, State, local, Tribal, and international 
partners.
    While the FBI continues to share intelligence about criminal groups 
with our partners and combines resources and expertise to gain a full 
understanding of each group, the threat of transnational crime remains 
a significant and growing threat to national and international security 
with implications for public safety, public health, democratic 
institutions and economic stability across the globe. Because of this, 
the FBI's fiscal year 2020 request includes $18.2 million to 
strategically target TOC networks across the globe and to develop 
solutions to effectively disrupt and dismantle Darknet financial 
networks and transnational money laundering groups.
    Illicit drug trafficking continues to be a growing threat. Large 
amounts of high-quality, low cost heroin and illicit fentanyl are 
contributing to record numbers of overdose deaths and life-threatening 
addictions nationwide. The accessibility and convenience of the drug 
trade online contributes to the opioid epidemic in the United States. 
Transnational criminal organizations (``TCOs'') are introducing 
synthetic opioids to the U.S. market, including fentanyl and fentanyl 
analogs. To address this evolving threat, we are taking a multi-faceted 
approach and establishing many initiatives and units across our 
criminal program.
    In January 2018, the Office of the Deputy Attorney General directed 
the FBI and other Federal law enforcement partners to develop a 
strategic plan to disrupt and dismantle the Darknet illicit 
marketplaces facilitating the distribution of fentanyl and other 
opioids. As a result, the FBI established the Joint Criminal Opioid 
Darknet Enforcement (``J-CODE'') Initiative, which brings together 
agents, analysts, and professional staff with expertise in drugs, 
gangs, healthcare fraud, and more, with Federal, State, and local law 
enforcement partners from across the U.S. Government. The J-CODE team 
has developed a comprehensive, multi-pronged criminal enterprise 
strategy to target the trafficking of fentanyl and other opioids on the 
Darknet and Clearnet. This strategy focuses on identifying and 
infiltrating the marketplace administrative team, analyzing financial 
information, locating and exploiting marketplace infrastructure, 
targeting vendors and buyers, and enabling field office success in the 
investigation and prosecution of these marketplaces. As a result, 
numerous investigations and operations have been initiated and several 
online vendors who are facilitating the trafficking of opioids via the 
Internet, to include fentanyl, have been disrupted.
    The FBI is also addressing this threat through the Prescription 
Drug Initiative (``PDI''). The PDI was established in 2016 in response 
to the substantial and increasing threat associated with prescription 
drug diversion, and in particular, the staggering national increase in 
opioid-related deaths. The objective of the PDI is to identify and 
target criminal enterprises and other groups engaged in prescription 
drug schemes; identify and prosecute, where appropriate, organizations 
with improper corporate policies related to prescription drugs; and 
identify and prosecute, where appropriate, organizations with improper 
prescribing and dispensing practices. The PDI prioritizes 
investigations which target ``gatekeeper'' positions, to include 
medical professionals and pharmacies that divert opioids outside the 
scope of their medical practice and/or distribute these medications 
with no legitimate medical purpose. Since its inception, the PDI has 
resulted in the conviction of numerous medical professionals and 
secured significant Federal prison sentences, to include life terms for 
physicians who cause harm or death to the patients entrusted to their 
care.
    Beyond these two programs, the FBI has dedicated additional 
resources to address this expansive threat. We have more than doubled 
the number of Transnational Organized Crime Task Forces, expanded the 
Organized Crime Drug Enforcement Task Force (``OCDETF'') Airport 
Initiative to focus on insider threats partnering with TCO actors, and 
created and led the Fentanyl Safety Working Group at FBI Headquarters, 
which has led to a new program to protect field agents and support 
employees with personal protective equipment (``PPE'') and opioid 
antagonists (i.e. naloxone) from the threat of fentanyl exposure. The 
FBI participated, along with other Federal partners, in the creation of 
the Heroin Availability Reduction Plan (``HARP''), takes part in 
monthly HARP meetings hosted by the Office of National Drug Control 
Policy (``ONDCP''), and continues to provide training to our 
international law enforcement partners on successful identification, 
seizure, and neutralization of clandestine heroin/fentanyl 
laboratories.
Crimes Against Children and Human Trafficking
    It is unthinkable, but every year, thousands of children become 
victims of crimes--whether it is through kidnappings, violent attacks, 
sexual abuse, human trafficking or online predators. The FBI is 
uniquely positioned to provide a rapid, proactive, and comprehensive 
response; identify, locate, and recover child victims; and strengthen 
relationships between the FBI and Federal, State, local, Tribal, and 
international law enforcement partners to identify, prioritize, 
investigate, and deter individuals and criminal networks from 
exploiting children.
    The FBI has several programs in place to arrest child predators and 
to recover missing and endangered children. To this end, the FBI funds 
or participates in a variety of endeavors, including our Innocence Lost 
National Initiative, Innocent Images National Initiative, Operation 
Cross Country, Child Abduction Rapid Deployment Teams, Victim Services, 
80 Child Exploitation Task Forces, 53 International Violent Crimes 
Against Children Task Force Officers, as well as numerous community 
outreach programs to educate parents and children about safety measures 
they can follow.
    Currently, there are at least 30 child pornography sites operating 
openly and notoriously on the Dark Net, including the Tor network. Some 
of these child pornography sites are exclusively dedicated to the 
sexual abuse of infants and toddlers. The sites often expand rapidly, 
with one site obtaining 150,000 new members within its first seven 
weeks of operation. The FBI combats this pernicious crime problem 
through investigations such as Operation Pacifier, which targeted the 
administrators and users of a highly-sophisticated, Tor-based global 
enterprise dedicated to the sexual exploitation of children. This 
multi-year operation has led to the arrest of over 348 individuals 
based in the United States, the prosecution of 25 American child 
pornography producers and 51 American hands-on abusers, the rescue or 
identification of 55 American children, the arrest of 548 international 
individuals, and the identification or rescue of 296 children abroad.
    Child Abduction Rapid Deployment Teams are ready response teams 
stationed across the country to quickly respond to abductions. 
Investigators bring to this issue the full array of forensic tools such 
as DNA analysis, trace evidence, impression evidence, and digital 
forensics. Through improved communications, law enforcement also has 
the ability to quickly share information with partners throughout the 
world, and these outreach programs play an integral role in prevention.
    In addition to programs to combat child exploitation, the FBI also 
focuses efforts to stop human trafficking--a modern form of slavery. 
The majority of human trafficking victims recovered during FBI 
investigations are United States citizens, but traffickers are 
opportunists who will exploit any victim with a vulnerability. Victims 
of human trafficking are subjected to forced labor or sex trafficking, 
and the FBI is working hard with its partners to combat both forms.
    The FBI works collaboratively with law enforcement partners to 
investigate and arrest human traffickers through Human Trafficking Task 
Forces nationwide. We take a victim-centered, trauma-informed approach 
to investigating these cases and strive to ensure the needs of victims 
are fully addressed at all stages. To accomplish this, the FBI works in 
conjunction with other law enforcement agencies and victim specialists 
on the local, State, Tribal, and Federal levels, as well as with a 
variety of vetted non-governmental organizations. Even after the arrest 
and conviction of human traffickers, the FBI often continues to work 
with partner agencies and organizations to assist victims in moving 
beyond their exploitation.
    Earlier this year, the FBI announced the results of an 11-day 
effort by the Violent Crimes Against Children/Human Trafficking Program 
and the Metro Atlanta Child Exploitation (``MATCH'') Task Force. The 
effort, leading up to Super Bowl LIII, was collaborated with over 25 
local, State, and Federal law enforcement agencies and District 
Attorney's Offices, along with seven non-government organizations. From 
January 23, 2019 to February 2, 2019, the operation's goal was to raise 
awareness about sex trafficking by proactively addressing that threat 
during the Super Bowl and events leading up to the Super Bowl. This 
event led to 169 arrests, including 26 traffickers and 34 individuals 
attempting to engage in sex acts with minors; nine juvenile sex 
trafficking victims recovered (the youngest was 14 years of age); and 
nine adult human trafficking victims identified. Trafficking is not 
just a problem during large-scale events--it is a 365 day-a-year 
problem in communities all across the country.
    The FBI commends the Committee's dedication to these efforts and 
appreciates the resources provided to combat these horrific acts.
             key cross-cutting capabilities and capacities
    I would like to briefly highlight some key cross-cutting 
capabilities and capacities that are critical to our efforts in each of 
the threat and crime problems described.
Operational and Information Technology
    As criminal and terrorist threats become more diverse and 
dangerous, the role of technology becomes increasingly important to our 
efforts. The FBI is using technology to improve the way we collect, 
analyze, and share information. We have seen significant improvement in 
capabilities over the past decade; but keeping pace with technology 
remains a key concern for the future.
    The volume of data collected in the course of investigations 
continues to rapidly expand. In the case of the 2017 Las Vegas 
shooting, the FBI recovered one petabyte of data. Insufficient network 
bandwidth and tools necessitated the need for 260 FBI personnel to work 
over 10 days to manually review 21,500 hours of video footage. These 
bandwidth and data challenges are not limited to major cases or large 
offices. It is not uncommon for FBI investigations to generate more 
than one terabyte of data per day, an amount that could normally take 2 
days to transit FBI networks at current bandwidth levels. As a result, 
the FBI has made dedicated efforts to upgrade and transform its 
information technology platforms to meet the demands of current and 
future investigations. To keep pace in an era where investigations and 
analysis will increasingly be conducted at the petabyte scale, the FBI 
needs to build networks that can move bulk data, modernize 
investigative data analysis, and reduce reliance on stand-alone, ad-hoc 
systems.
    A key tenet of this transformation is the integration of Data 
Analysts (``DA'') in field offices nationwide. A DA is able to clean, 
standardize, enrich, and visualize data using computer programming and 
statistical techniques to provide products to the investigative team to 
further investigative matters. They are able to create code tailored to 
intelligence and investigative requirements to triage and prioritize 
vast amounts of data received by investigative teams, enabling 
efficient follow-on analysis; convert thousands of location points 
contained in cellphone call and data records into a usable format for 
follow-on network and geospatial analysis; and combine dozens of 
differently formatted files into an easy-to-read, consolidated format, 
free of duplicate and inconsistent information. In fiscal year 2018, 
the FBI piloted the DA program by sending analysts to several FBI Field 
Offices. The DAs helped those offices address several of their most 
critical data challenges, and were able to solve volume, velocity, and 
geospatial data issues. In one instance, investigators wanted to 
determine what businesses a credit card skimming subject visited to 
place money orders. The DA converted hundreds of pages of call detail 
records to a machine readable format, plotted location points onto a 
map to show the subject's location over time, and calculated the 
proximity to vendors where fraudulent activity may have occurred. The 
DA's mapping product not only provided pattern of life information 
(leading to the discovery of new investigative leads), but also saved 
investigators days, if not weeks. The fiscal year 2020 Request expands 
the 2018 pilot program by requesting an additional 25 Data Analysts to 
deploy to the most critical field offices. The FBI will continue to 
monitor and measure the success of this program.
    The FBI Laboratory is one of the largest and most comprehensive 
forensic laboratories in the world. Operating out of a facility in 
Quantico, Virginia, laboratory personnel travel the world on 
assignment, using science and technology to protect the Nation and 
support law enforcement, intelligence, military, and forensic science 
partners. The Lab's many services include providing expert testimony, 
mapping crime scenes, and conducting forensic exams of physical and 
hazardous evidence. Lab personnel possess expertise in many areas of 
forensics supporting law enforcement and intelligence purposes, 
including explosives, trace evidence, documents, chemistry, 
cryptography, DNA, facial reconstruction, fingerprints, firearms, and 
counterterrorism and forensic research.
    The Terrorist Explosives Device Analytical Center (``TEDAC'') is a 
key example. Formally established in 2004, TEDAC serves as the single 
interagency organization that receives, fully analyzes, and exploits 
all priority terrorist improvised explosive devices (``IEDs''). TEDAC 
coordinates the efforts of the entire government, including law 
enforcement, intelligence, and military entities, to gather and share 
intelligence about IEDs. These efforts help disarm and disrupt IEDs, 
link them to their makers, and prevent future attacks. For example, 
Laboratory Division personnel testified in New York in the successful 
prosecution of Muhanad Mahmoud Al Farekh after linking him to a 
vehicle-borne improvised explosive device prepared for an attack on a 
U.S. military base in Afghanistan. Although originally focused on 
devices from Iraq and Afghanistan, TEDAC now receives and analyzes 
devices from all over the world.
    Additionally, the Laboratory Division maintains a capability to 
provide forensic support for significant shooting investigations. The 
Laboratory Shooting Reconstruction Team provides support to FBI field 
offices by bringing together expertise from various Laboratory 
components to provide enhanced technical support to document complex 
shooting crime scenes. Services are scene- and situation-dependent and 
may include mapping of the shooting scene in two or three dimensions, 
scene documentation through photography, including aerial and oblique 
imagery, 360-degree photography and videography, trajectory 
reconstruction, and the analysis of gunshot residue and shot patterns. 
Significant investigations supported by this team include the shootings 
at the Inland Regional Center in San Bernardino, California; the Pulse 
Night Club in Orlando, Florida; the Route 91 Harvest Music Festival in 
Las Vegas, Nevada; and the shooting of 12 police officers during a 
protest against police shootings in Dallas, Texas.
    FBI Special Agents and Intelligence Analysts need the best 
technological tools available to be responsive to the advanced and 
evolving threats that face our Nation. Enterprise information 
technology must be designed so that it provides information to 
operational employees rather than forcing employees to conform to the 
tools available. IT equipment must be reliable and accessible, thus 
decreasing the time between information collection and dissemination.
                               conclusion
    In closing, the work being done by the FBI is immeasurable; 
however, we cannot afford to be complacent. We must seek out new 
technologies and solutions for the problems that exist today as well as 
those that are on the horizon. We must build toward the future so that 
we are prepared to deal with the threats we will face at home and 
abroad and understand how those threats may be connected.
    Being expected to respond to a wide range of complex and ever-
changing threats and crime problems is not new to the FBI. Our success 
in meeting these challenges is, however, directly tied to the resources 
provided to the FBI. The resources the Committee provides each year are 
critical for the FBI's ability to address existing and emerging 
national security and criminal threats.
    Chairman Moran, Ranking Member Shaheen, and Members of the 
subcommittee, I would like to close by thanking you for this 
opportunity to discuss the FBI's fiscal year 2020 budget request and 
the key threats and challenges we are facing, both as a nation and as 
an organization. We are grateful for the leadership that you and this 
subcommittee have provided to the FBI. Your willingness to invest in 
and support our workforce and our physical and technical infrastructure 
allow the men and women of the FBI to make a difference every day in 
communities large and small throughout our Nation and around the world. 
We thank you for that support.
    I look forward to answering any questions you may have.

                             2016 ELECTION

    Senator Moran. Thank you very much.
    Let me begin with a follow-up on the hearing we had last 
week with Attorney General Barr. A few weeks ago in that budget 
hearing, he indicated that he believed spying on the Trump 
campaign did occur in the 2016 election. And the question was 
whether that spying was legal. The Attorney General stated he 
intended to look into the legality of these actions, and I 
believe that is of value.
    Have you initiated any internal reviews of the FBI's action 
during the 2016 election?
    Mr. Wray. Well, Mr. Chairman, there are a couple things 
going on.
    First, there is, of course, the ongoing Inspector General's 
investigation that is being conducted by the independent Office 
of Inspector General, and our folks are assisting them with 
their effort.
    And then second, as you alluded to, now that the Special 
Counsel investigation is completed and, having only recently 
returned to the Department, the Attorney General is seeking to 
understand better the circumstances at the Department and the 
FBI relating to how this investigation started. And we are 
working to help him get that understanding. I think that is 
part of his job and part of mine.
    Senator Moran. The Mueller report, as you indicated, has 
been released, and it did find that the Russians did interfere 
with the 2016 election. Could you please elaborate on the FBI's 
role in election security and actions taken by the Bureau 
during the 2016 election to mitigate foreign interference?
    Mr. Wray. Well, as to the 2016 election, I think I will let 
the Special Counsel's report speak for itself. You know, it is 
450 pages long, represents a lot of hard work by a large team 
of professionals over almost 2 years.
    But one of the things that I set in motion almost 
immediately after starting in this role was to create a Foreign 
Influence Task Force, which is a measure not just of how 
seriously I take and we take the foreign malign influence 
threat, but also I think a recognition of the need for better 
coordination. This is a multi-disciplinary problem requiring a 
multi-disciplinary solution.
    So the Foreign Influence Task Force brings together our 
cyber resources, our counterintelligence resources, our 
criminal resources, and even our counterterrorism resources 
because there is a little bit of a domestic terrorism wrinkle 
to some of this. It is the axis, sort of the hub with the 
spokes going out to our field offices and coordinating with the 
Department of Homeland Security, ODNI, NSA, and in particular 
working much more closely with State and local election 
officials, along with the Department of Homeland Security and 
the tech sector in Silicon Valley, because on the foreign 
influence threat in particular, I think it is very important 
for Americans to understand that this is a threat--not just a 
government threat. We need to have a partnership with the 
social media companies in particular. And we have had really 
significant progress in that regard going into the midterms. 
There were a lot of successes in the 2018 midterms through that 
kind of team effort.

                         ELECTION INTERFERENCE

    Senator Moran. Is the election interference broader than 
just--when we talk about foreign interference in our elections, 
is it broader than just Russia?
    Mr. Wray. Well, there are different kinds of malign foreign 
influence. Certainly other countries, other adversaries are 
engaged in different kinds of malign foreign influence. The 
specific form of sowing divisiveness and discord through the 
bullhorn that social media provides, you know, the trolls, 
bots, et cetera--that was something that was really fairly 
unique to the Russians. But certainly we know that other 
countries have been eyeing those efforts and entertaining 
whether or not to take a page out of that book.

                          NASSER INVESTIGATION

    Senator Moran. Director, when you appeared before this 
subcommittee last year, I asked you about issues related to the 
Nasser investigation, Dr. Nasser and the Olympics. You 
indicated an answer was difficult to give because of an OIG 
investigation.
    Since that time, the FBI has conducted an internal 
investigation that led to that review by the Inspector General, 
and we await that conclusion. I guess at this point, unless you 
are willing to share more information than you were a year ago 
in this regard, which I would welcome hearing from you, beyond 
that, I would ask you to assure me that the FBI will prioritize 
and take the OIG's results and recommendations seriously.
    Mr. Wray. Well, certainly, Mr. Chairman. First, I should 
say that our heart breaks and aches for the victims of that 
particular matter. As you said, there is an independent 
Inspector General investigation going on into the handling of 
that matter, and I expect to take very seriously the 
recommendations that we get out of the Office of Inspector 
General. But that is very much still an ongoing review.
    Senator Moran. Thank you, sir.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you very much, Director Wray, for being here this 
morning.
    I would like to follow up on Senator Moran's question about 
the hearing we had with Attorney General Barr because I was 
very concerned by his use of the word ``spying,'' which I think 
is a very loaded word. It conjures a criminal connotation. And 
I want to ask you--and I would appreciate a yes or no answer if 
possible--when FBI agents conduct investigations against 
alleged mobsters, suspected terrorists, other criminals, do you 
believe that they are engaging in spying when they are 
following FBI investigative policies and procedures?
    Mr. Wray. Well, that is not the term I would use.
    Senator Shaheen. Thank you. So I would say that is a no to 
that question.
    Mr. Wray. Well, I mean, look, there are lots of people that 
have different colloquial phrases. I believe that the FBI is 
engaged in investigative activity, and part of investigative 
activity includes surveillance activity of different shapes and 
sizes. And to me the key question is making sure that it is 
done by the book consistent with our lawful authorities. That 
is the key question. Different people use different colloquial 
phrases.

                           SECURING WARRANTS

    Senator Shaheen. And as part of the investigative process, 
do FBI agents secure warrants for relevant evidence?
    Mr. Wray. I am sorry. Could you repeat the question?
    Senator Shaheen. Yes. As part of an investigative process, 
like the investigative process into the 2016 presidential 
campaign, do FBI agents secure warrants for relevant evidence?
    Mr. Wray. Certainly, securing warrants is a very important 
step that we take every day in the FBI in lots and lots of 
investigations.
    Senator Shaheen. So I would take that as a yes.
    Did FBI agents get warrants for information as part of 
their countersurveillance investigation into Russian 
interference in the 2016 election?
    Mr. Wray. Well, I want to be a little bit careful about 
what I can discuss here, but I think it has been publicly 
disclosed that there were a number of relevant warrants that 
were secured in the course of that investigation.
    Senator Shaheen. Thank you.
    And do you believe, Director Wray that the FBI and its 
agents spied into the 2016 presidential campaign operation?
    Mr. Wray. Well, again, I want to be careful about how I 
answer that question here because there is an ongoing Inspector 
General investigation. I have my own thoughts based on the 
limited information I have seen so far, but I do not think it 
would be right or appropriate for me to share those at this 
stage. I really do think it is important for everybody to 
respect the independent Inspector General's investigation, 
which I think this line of questioning starts to implicate, and 
I think it is very important for everybody to be able to have 
full confidence in his review.
    Senator Shaheen. And at this time, do you have any evidence 
that any illegal surveillance into the campaigns or individuals 
associated with the campaigns by the FBI occurred?
    Mr. Wray. I do not think I personally have any evidence of 
that sort.
    Senator Shaheen. Thank you.
    Now, again, the Attorney General stated that he was 
assembling a team to look into the situation of illegal 
surveillance into the Trump presidential campaign and stated 
that he expected to work closely with you on this. Has the 
Attorney General asked you to look into or review the actions 
undertaken by the FBI regarding the counterintelligence 
investigation?
    Mr. Wray. Well, as I said, he is trying to get a better 
understanding of the circumstances at the Department and the 
FBI surrounding the initiation of this particular 
investigation. He and I have been in fairly close contact about 
it, and we are trying to work together to help him get the 
understanding that he needs on that subject. I think that is 
appropriate.

                         ELECTION INTERFERENCE

    Senator Shaheen. As you pointed out, the evidence in the 
Mueller report is very clear that the Russians interfered in 
our 2016 election, and there have been a variety of news 
reports suggesting that they intend to do that again. We have 
had testimony in the Armed Services Committee about their 
interest in interfering in the 2020 election.
    Can you talk about what the FBI is doing to coordinate with 
other branches within government a response to ensure that that 
does not happen in the 2020 election?
    Mr. Wray. Well, I appreciate the question. I agree with you 
that this is a particularly important issue. I think one of the 
things that people out there would benefit from understanding 
is that this is not just an election cycle threat, that the 
malign foreign influence threat, which is different from some 
effort to interfere with election infrastructure, is something 
that continues pretty much 365 days a year. And we have seen it 
continue since 2016, and we expect it to continue going into 
2020.
    The Foreign Influence Task Force that I set up at the FBI 
works very closely with a similar kind of vehicle at the 
Department of Homeland Security and similar structures at the 
Office of the Director of National Intelligence and at NSA. So 
those four entities in particular are kind of the key ones at 
the center of this. But then we work closely with, as I said to 
the Chairman, Silicon Valley on the foreign influence side, and 
then DHS in particular works with State and local election 
officials on some of the election infrastructure piece. So 
there is a lot of activity, better coordination in my view than 
what I found when I first walked in the door. But make no 
mistake, the threat just keeps escalating, and we are going to 
have to keep upping our game to stay ahead of it.
    Senator Shaheen. Thank you. I am out of time. But can you 
just tell me who is in charge of that effort? So is there one 
person who has been designated to coordinate all of those 
efforts?
    Mr. Wray. Well, I think each of us has our piece of it. We 
coordinate closely together, much as we do on, say, 
counterterrorism or any number of other national security 
threats.
    Senator Shaheen. So does that mean that there is currently 
not one person who has been designated as the leader of that 
effort?
    Mr. Wray. Well, the FBI has lead on foreign influence. The 
Department of Homeland Security takes the lead on election 
infrastructure hardening and so forth. The Office of the 
Director of National Intelligence takes the lead in terms of 
intelligence analysis. But like I said, in my experience it is 
not unlike what we do with any number of other threats facing 
this country. We all work together and each of us has our piece 
of the pie, which I think is the way it should be.
    Senator Shaheen. Thank you.
    Senator Moran. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Director Wray, I want to follow up on the point that was 
just made by my two colleagues. Here are the facts as I see 
them.
    We know that the Russians were relentless in their efforts 
to influence the 2016 campaign and to further divide and 
polarize our society.
    We know that this effort did not end with the 2016 
campaign. It both preceded it and continues to this very day.
    Third, we know that it is not just the Russians, that other 
foreign states and other malicious actors are targeting our 
democratic society.
    There are 17 intelligence agencies, and each of them seems 
to have a piece of this. You talked about that just now. It 
concerns me that there is not one agency that is in charge of 
the overall strategy. Should that be the FBI?
    Mr. Wray. Well, Senator Collins, first let me say I agree 
with your framing of the predicament that we face in terms of 
the threat itself.
    In terms of coordination, I think the FBI has a lead role 
to play in aspects of that. I think the NSC provides a useful 
construct for us to coordinate. I have not found a significant 
impediment to our coordination with the Department of Homeland 
Security, NSA in particular, and ODNI. And I have found that to 
be fairly similar to, as I say, the way we deal with 
counterterrorism and a number of other national security 
threats. So at the moment, that has not struck me as one of the 
biggest barriers we face.
    I think the bigger issues for us are making sure that we 
continue to lean in and are working with Silicon Valley, the 
tech sector, on the foreign influence side and with the State 
and local election officials who, after all, really control the 
election infrastructure side. I think that part of it is where 
we need to keep upping our game as we anticipate 2020, the 
threat being even more challenging than it has been.
    Senator Collins. So let me ask you, what key lessons has 
the FBI learned to date that we should be implementing right 
now?
    Mr. Wray. Well, certainly--I will speak to the foreign 
influence piece in particular.
    I think that there is enormous value to be had in our 
cooperation with the tech sector and social media in particular 
on the foreign influence threat. The reality is malign foreign 
influence, as you I think quite rightly summarized, is not 
unique to this particular moment in time nor unique to this 
particular foreign adversary. But what is different right now 
is the incredible amplification that our adversaries get 
through social media. And so one of the things that changed 
dramatically from 2016 to 2018 was our coordination with social 
media in terms of blunting and mitigating that effect. And what 
we saw in 2018 and are going to need to do even more of in 
2020, is supply leads and information to the social media 
companies, who have all kinds of ways they can leverage their 
own tools and kick some of these accounts off of their 
platforms very, very quickly in a way that would be hard for 
any agency of government to do. And there were a lot of success 
stories in that regard in 2018.
    In return, one of the things we learned was that they were 
then able to provide us lead information about accounts that we 
might not have known about, techniques we might not have seen. 
And so you start creating this sort of virtuous cycle. And I 
think now having figured that out with the midterms, we need to 
see even more of that for 2020.
    Senator Collins. That cooperation is essential with the 
private sector.
    Last, let me turn to a different issue very quickly. Last 
week in Maine, the FBI and Maine law enforcement charged 25 
individuals with drug trafficking crimes. And particularly 
alarming to me is the quantity of fentanyl that was discovered. 
One man was found to have more than 265 grams of fentanyl. A 
fraction of that amount, just 3 milligrams, is sufficient to 
kill someone.

                            OPIOID EPIDEMIC

    How is the FBI targeting resources specifically toward 
fentanyl crimes?
    Mr. Wray. So, Senator, I think you have put your finger on 
what I think we would all agree is a deadly epidemic plaguing 
communities all over the country. Unfortunately, it has grown 
to a point where it is a multi-disciplinary problem requiring a 
multi-disciplinary approach. The FBI's role in that is trying 
to really focus on where do we uniquely add value. So there are 
a number of things we are doing on that.
    First, we have a prescription drug initiative that is 
geared essentially towards medical providers, medical 
professionals, pharmacists, pill mills, doctors, et cetera who 
are over-prescribing, which is a big part of the spinning up of 
this problem. And we tap into our health care fraud expertise 
and resources there.
    Second, we have Safe Streets Task Forces all over the 
country, which focus on dismantling the gangs that distribute 
opioids and fentanyl-related substances all over the country.
    Third, we have something called J-CODE, which features 
prominently in our budget request that I might mention, focused 
on the Darknet because a lot of the opioid trafficking happens 
on the Darknet more and more. And we have had a number of 
successful operations. We just had a couple in the last few 
months that really are aimed at detecting, disrupting, and 
dismantling both the enterprises that are dependent on the 
Darknet to traffic in opioids and fentanyl, but also to break 
down their supply chains.
    And then fourth, through our Transnational Organized Crime 
program, we focus on the transnational criminal organizations 
which are the principal source of the supply coming into the 
U.S.
    We also have other platforms. We did a documentary with DEA 
called ``Chasing the Dragon,'' which we have pushed out to 
schools all over the country to try to raise awareness that 
way.
    So there are a lot of different things we are trying to do, 
but make no mistake. This is a problem that has mushroomed to a 
degree where it is going to really require all hands on deck.
    Senator Collins. Thank you.
    Senator Moran. I recognize the Vice Chairman of the full 
committee, Senator Leahy.
    Senator Leahy. Thank you very much, Mr. Chairman.
    And, Director Wray, good to see you again.
    It was interesting listening to the evolution of the FBI. I 
remember as a young prosecutor--I was on the executive board of 
the National DA's Association--having a meeting with J. Edgar 
Hoover. He told us there was no such thing as organized crime. 
Our biggest problems were our hippies and communists, and the 
``New York Times'' was close to being a communist paper and he 
was preparing to investigate it as such. It was an interesting 
conversation for many reasons. He passed away shortly 
thereafter.
    Now, one of my concerns on last week's hearing with the 
Attorney General is a reluctance on the part of the 
administration, starting at the top, to acknowledge what Russia 
did was wrong and an American campaign knowingly benefiting 
from or encouraging a foreign adversary's attack on our 
elections is also wrong. In fact, quite wrong I think we would 
all agree.
    Two thousand twenty is around the corner. Friday, the 
President had a long conversation with Russian President Putin. 
He did not even bring up future election interference. He 
refers to the last investigation as treasonous, claims the FBI 
was leading a coup. I suspect that you probably have a 
different view of this. I think those who are going to enforce 
our laws have to be crystal clear about the ongoing threat.

               FOREIGN GOVERNMENT ASSISTANCE TO CAMPAIGNS

    So I am going to ask you this. If a foreign government 
offers assistance to a political campaign, opposition research, 
stolen information, social media campaign, or otherwise, what 
would you as Director of the FBI, if you discovered it, ask 
that campaign to do?
    Mr. Wray. Well, Senator, as I think I have said even back 
to my confirmation hearing before the Senate Judiciary 
Committee----
    Senator Leahy. That is why I asked the question.
    Mr. Wray [continuing]. When Senator Graham asked me a 
similar question then, I think my view is that if any public 
official or member of any campaign is contacted by any nation 
state or anybody acting on behalf of a nation state about 
influencing or interfering with our election, then that is 
something that the FBI would want to know about.
    Senator Leahy. And if they did not make such things 
available to the FBI and you found out about it later, would 
that trouble you?
    Mr. Wray. Well, as I said, we would like to make sure 
people tell us information promptly so that we can take 
appropriate steps to protect the American people.
    Senator Leahy. The President said he would like to use the 
Justice Department as a political weapon targeting his 
opponent. I know the Attorney General has been asked about 
this.
    Has the White House ever communicated to you directly or 
indirectly any desire of interest in having the FBI initiate an 
investigation of anyone?
    Mr. Wray. Not that I can think of. Certainly, there are all 
kinds of public commentary, but my view is we base our 
investigations on the facts, the evidence, and proper 
predication, and that has been my practice since the day I 
walked in the door.
    Senator Leahy. I ask the question only because I would like 
to think there is a different FBI than the first time I sat 
down an FBI Director with J. Edgar Hoover and heard his 
discussions of, obviously, being interested in political 
investigations.
    Is it your position you would not be willing to have the 
FBI initiate an investigation that was done for a political 
purpose not for a criminal purpose?
    Mr. Wray. My strong view and my commitment is to making 
sure that the FBI under my leadership does things by the book, 
and that includes making sure that we base our investigations 
on proper predication, the facts, the evidence, and adherence 
to the rule of law and nothing else.
    Senator Leahy. Thank you.
    The Hate Crimes Statistics Act requires hate crimes to be 
reported to the FBI. But we find that in 2017, of 16,000 law 
enforcement agencies in the country, 14,000 of them did not 
report hate crimes to you. The Crime Victimization Survey 
estimates more than a quarter of a million hate crimes, and you 
were able to only report 7,175 based on what was reported to 
you.
    Are you concerned that these hate crimes are not being 
reported to you? And if you are concerned about it, how do we 
improve them?
    Mr. Wray. So it is a good question. I do think that 
historically hate crimes have gone underreported. I think that 
is probably still true to a certain extent. I do think it is 
getting better. So some of the uptick in numbers reported may 
reflect closing the gap between what is happening and what is 
being reported.
    To the second part of your question, we have tried to do a 
number of things to try to raise awareness with State and local 
law enforcement, with community groups, and so forth to try to 
increase the likelihood that hate crimes will be reported. I am 
a big believer in the idea that everybody benefits--law 
enforcement, the community, et cetera, when discussions about 
these things are based on the facts and the real data as 
opposed to relying instead on what would fill the gap 
otherwise--media commentary, which I have found to be much less 
reliable.
    Senator Leahy. Thank you.
    And on a personal matter, Mr. Chairman, I have to applaud 
the video you put out talking about the shutdown. You have 
talked to the men and women of the FBI who said the shutdown 
was mind-boggling, short-sighted, unfair. When Senator Shelby 
and I, with our two counterparts from the House, met in my 
office to broker a deal to stop the shutdown, you had both 
Republicans and Democrats applauding what you said to the FBI. 
Thank you, Mr. Chairman.
    Senator Moran. Thank you.
    In order for us to have plenty of time for the executive 
session, now that Senator Leahy and Senator Shaheen have 
completed their questioning, I am going to try to hold 
everybody to their 5 minutes better than I have so far to date.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    And thank you, Director, for being here very, very much.

                             VIOLENT CRIME

    As you know, we in Arkansas, as well as every other State 
in the Union, is struggling with--violent crime and the 
substance abuse epidemic that we have going on.
    In your testimony, you mentioned State, local, Tribal law 
enforcement partnerships are crucial to the FBI to better 
understand a community and their needs. Can you elaborate on 
the partnerships and task forces that are created within these 
communities? How does the Bureau work across jurisdictions and 
communities do that this very, very important work in fighting 
against these things?
    Mr. Wray. Well, Senator, I think you have rightly 
identified a really significant problem facing this country. I 
have had the opportunity to visit the Little Rock field office 
and meet with State and local law enforcement there to talk 
about this very issue. And there is some very good work, even 
within the whole FBI, some particularly good work being done on 
the violent crime problem in the Little Rock area.
    I think the keys to the violent crime problem from my 
perspective are, number one, partnership and, number two, 
intelligence--meaning intelligence driving prioritization. So 
one of the things we have found is that in almost every 
community around the country--and it is true in Little Rock, 
but it is true in every community in this Nation--is that there 
is almost always some tail or tails that are wagging the dog, 
meaning some particular gang that is disproportionately 
accounting for the homicide rate or violence in some particular 
neighborhood or corridor on a highway. I mean, it varies from 
community to community. But what does not vary is that there is 
always that disproportionate effect.
    And so using good intelligence to prioritize and be 
disciplined about where we are going to maximize our impact and 
then taking the partnership with State and local law 
enforcement to, as I like to say, not just put two plus two to 
get four, but get two plus two to make five or six or seven by 
finding synergies. And that is what is happening in the Little 
Rock area and that is what is happening in a number of the 
other communities represented up here on this subcommittee. And 
that is where you start to see very promising reductions in the 
violent crime rate, the assault rate, the homicide rate 
sometimes in a very short period of time. And that translates 
to kids who can go out in the front yard and play after dark 
and people who can walk home and who do not have to be afraid 
in their own neighborhoods. And that is the impact we are 
after.

                  COORDINATION WITH POSTAL INSPECTORS

    Senator Boozman. One of the things that seems to be at play 
right now in a very, very significant way is the mail, and our 
postal authorities, postal inspectors do a great job. They do 
not have a lot of resources. Is that something that we do have 
coordination with people like you and the rest of the agencies?
    Mr. Wray. I am sorry coordination between us and?
    Senator Boozman. And the postal inspectors. So much of this 
is mail-oriented now.
    Mr. Wray. Oh, I see.
    Senator Boozman. Yes. As I visit with my county sheriffs 
and others, it seems like that is an area that perhaps we have 
not--again, not because our postal inspectors are not doing a 
good job. They have not had a lot of resources. Are we 
coordinating to somehow try and bring that under control?
    Mr. Wray. We are. And I go back to my earliest days as a 
baby prosecutor working with Postal Inspection Agents. So they 
are an incredibly great partner.
    I will just give one good example, the Cesar Sayoc 
investigation from back in the fall, the sort of package IED 
cases that got so much attention around the country. We worked 
incredibly closely with postal there to help each other to, 
again, get that two plus two to get five or six effect. And 
there was a lot of great work there done not just by the FBI's 
folks but by postal.

                          BUDGET REQUIREMENTS

    Senator Boozman. Your budget is fairly modest. How can we 
help you?
    Mr. Wray. Well, there are a number of places where we 
really need significant help. I mentioned a few in my opening 
statement.
    On the cyber side, I would say that the threat has grown 
exponentially in terms of actors, methods, targets, so we need 
personnel and tools there in a big, big way. Just to give you 
some frame of reference in terms of the data context, you know, 
the entire Library of Congress digital library has about 7 
petabytes of data. The Las Vegas shooting, which everybody on 
this subcommittee is familiar with--just that one investigation 
generated 1 petabyte of data. That is one investigation out of 
the thousands we do. So we are in serious need of both cyber 
tools and data analytic tools.
    On the counterintelligence side, we are facing a uniquely 
challenging time in terms of foreign investment and foreign 
influence from China, Russia, North Korea, Iran--I could go on 
and on there. We have resources that we are asking for there. 
We really need help.
    Transnational Organized Crime is something that is 
diversifying every time we turn around and affects Americans 
every day.
    I mentioned the J-CODE initiative in response to Senator 
Collins' question about the Darknet. So we need help there.
    And then again, modernizing our IT. It is not glamorous, 
but in today's world, technology is at the heart of every 
threat we are all concerned about, and we need to be able to 
stay ahead of it because if we start falling behind, people are 
less safe.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Moran. Senator Reed.
    Senator Reed. Thank you, Mr. Director.

                     SPECIAL COUNSEL INVESTIGATION

    The Special Counsel report on the investigation into 
Russian interference in the 2016 presidential election 
concluded--and I quote--the Russian Government perceived it 
would benefit from a Trump presidency and worked to secure that 
outcome.
    The report detailed two primary information warfare 
operations, one of which was, in their words, a Russian entity 
that carried out a social media campaign that favored 
presidential candidate Donald J. Trump and disparaged 
presidential candidate Hillary Clinton.
    Director Wray, based on your intelligence at the moment, do 
you conclude that the Russians still have the same goal and 
intention to support President Trump in next year's election as 
the Special Counsel's report indicated? And I think that 
requires a yes or no.
    Mr. Wray. I do not know that I think we have the answer to 
that at the moment. I think what I would say is the Special 
Counsel's report speaks for itself in terms of what it found. 
And we continue to assess that the Russians are focused on 
sowing divisiveness and discord in this country and pitting us 
against each other, and that part I think we see alive and 
well.
    Senator Reed. But you have no further indication of a 
preference for a candidate at this point.
    Mr. Wray. I do not think there is anything that I could 
share at this particular point in time.
    Senator Reed. Would you commit to making public at a point 
that you have sufficient information and intelligence that 
there is a preference by the Russians that is guiding their 
information operations? I think that would be critical to the 
American public.
    Mr. Wray. Well, certainly we want to make sure that both 
the Congress and the American public get the information they 
need to have. Anytime you start raising hypotheticals involving 
counterintelligence efforts, I want to be really careful about 
what I commit to given my commitment to protecting sources and 
methods in ongoing investigations and to protecting our 
relationships with foreign liaison partners.
    Senator Reed. It is not about sources and methods. I think 
there has been a lot of criticism previously--and many from our 
Republican colleagues--that President Obama did not do enough 
to alert the American public that there was a concerted effort 
directed at supporting President Trump, as was established very 
clearly in the Mueller report.
    Also, again the intelligence communities--their report in 
2017--of January 2017, quote, when it appeared to Moscow that 
Secretary Clinton was likely to win the presidency, the Russian 
influence campaign focused more in undercutting Secretary 
Clinton's legitimacy, including by impugning the fairness of 
the election. In fact, there was an indictment last year, last 
October, in the Eastern District of Virginia of a criminal-
linked troll group, the Internet Research Agency, posing as 
Americans, deployed messages about voter fraud through social 
media throughout the United States.
    Are you looking at the 2020 election anticipating another 
attempt to discredit the credibility and the legitimacy of the 
election?

                         ELECTION INTERFERENCE

    Mr. Wray. We are keenly focused on preparing for the 2020 
election in terms of the malign foreign influence threat. We 
expect to see efforts to, as I said, sow divisiveness and 
discord and likely efforts to use fake news, propaganda, fake 
personas, et cetera, which might be done in a way that would be 
geared towards affecting particular races, but might also be 
done just to generate chaos. Either way, we are also keenly 
attuned to it and focused on that.
    Senator Reed. To undermine the legitimacy of the election, 
which is interesting because President Trump on the campaign 
trail in 2016 talked about the only way we can lose is if 
cheating goes on. It is a conscious parallelism perhaps or 
unconscious parallelism. I do not know which.
    We are in a position right now where, particularly if their 
favored candidate does not prevail, the Russians will do what 
they were going to do deliberately in 2016 and suggest that 
machines have been tampered with, that immigrants have voted 
illegally.
    So in what respect in a legitimate office of the United 
States today has been charged with the task, collaborating with 
the States because they run these elections, to immediately 
communicate with the American public on the facts--i.e., there 
was no machine tampering, there were no illegal immigrants--or 
if there are, the specifics of those facts? Without that, we 
could face a crisis and a constitutional crisis of immense 
dimensions. Who is going to do that?
    Mr. Wray. Well, the principal interface between the Federal 
Government and State and local election officials is the 
Department of Homeland Security.
    Senator Reed. But we do not have a director.
    Mr. Wray. I am sorry?
    Senator Reed. We do not have a director.
    Mr. Wray. Well, we have an acting Secretary.
    And I think in terms of putting out information, what I 
have experienced during my 20 months on the job, when it comes 
to putting out information about election influence or election 
interference is that we, the Office of the Director of National 
Intelligence, and the Department of Homeland Security all work 
together----
    Senator Reed. My time has expired. But has the President 
directed you or anyone else to be prepared to do this? Because 
given what we have observed already, it is highly unlikely that 
he would be in a position, particularly if he was on the other 
end of the election, the wrong end, to be objective and factual 
and trying to calm the American public rather than to aggravate 
the situation. Has he directed you to do that?
    Mr. Wray. We, the group that I have described a minute ago, 
meaning the FBI, ODNI, NSA, DHS, and others, have had a number 
of meetings, some of which included the President himself 
chairing them, that have been focused on our efforts on how we 
can up our game to protect our elections and our democracy.
    Senator Reed. Thank you, Mr. Chairman.
    Senator Moran. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Thank you, Mr. Director. I want to thank you personally and 
your entire team for your help in catching the punk that burned 
three of our churches in Louisiana. The perpetrator was caught 
quickly, and I do not think we could have done that without the 
assistance of the FBI. And we in Louisiana are very grateful 
for that.
    I want to talk to you for a second about 2016. I think we 
can agree that--at least this is my opinion--the FBI is the 
premier law enforcement agency in all of human history. And I 
think most Americans and most of our friends across the world 
believe that as well.
    Unfortunately, there has been created a perception that 
given the two investigations of presidential candidates in 
2016, that some members of the FBI allegedly acted on their 
political beliefs. And I think it is important that we get rid 
of that perception.
    We have forgotten also that there were two investigations. 
There was an investigation of President Trump but also an 
investigation of Secretary Clinton.
    I know the Inspector General has weighed in on the Clinton 
investigation, and he is weighing in on the Trump 
investigation. But aside from that, can you tell me what the 
factual predicate was for the investigation of Secretary 
Clinton and her alleged email scandal?

                      PREDICATE FOR INVESTIGATION

    Mr. Wray. I do not know that I can say sitting here what 
the predicate is.
    As you mentioned, the independent Inspector General did a 
fairly intense, rigorous and thorough investigation of that 
case, provided a pretty long report, and testified in front of 
multiple committees of Congress about it. There were a lot of 
important lessons learned from that, and I think we, the FBI 
and I at the helm, took those lessons very much to heart 
immediately. Some of them we already had in place.
    Senator Kennedy. Excuse me for interrupting, Mr. Director, 
but I am going to run out of time and I do not want to do that.
    Can you tell me what the factual predicate was for the 
investigation of President Trump?
    Mr. Wray. Well, the Special Counsel's report goes through a 
fair amount of detail about the predication for its 
investigation. I think beyond that, as I mentioned to the 
Chairman, I have had a number of conversations working to help 
the Attorney General get a better understanding of what the 
circumstances surrounding the initiation of that investigation 
were at the Department and the FBI back in 2016.
    Senator Kennedy. Why do you not just--I know you cannot do 
this on your own, but the President can. The President could 
declassify, with proper redaction, all of the documents at the 
FBI pertaining to the 2016 investigation of Secretary Clinton 
and President Trump and then let the American people see them 
and draw their own conclusions. Why do we not do that?
    Mr. Wray. Well, without weighing in on the legal question 
of authority certainly, I would tell you that when we redact 
information or when we classify information, there are a number 
of very, very important principles that are at stake there: 
protection of sources and methods without which Americans are 
less safe, and the protection of ongoing criminal 
investigations or other investigations without which the 
American people are less safe. And there are various other 
legal issues implicated that go beyond just the power to 
declassify. And so while I think it is important that we be as 
transparent as we can be with the American people and certainly 
with the Congress, I also think it is very important to protect 
those kinds of information that are the lifeblood of our 
ability to fulfill our mission.
    Senator Kennedy. What are we going to do then, Mr. 
Director? How do we remove this perception that there were a 
handful of people at the FBI and at the Justice Department in 
2016 that acted on their political beliefs and tried to 
influence the election? How are we going to lance that boil? 
And I am talking about both with respect to the investigations 
of Mrs. Clinton and Mr. Trump.
    Mr. Wray. So as to both matters--one case already 
completed, the other case still underway--there have been 
independent--so outside the FBI--Inspector General 
investigations that are professional and apolitical, that are 
rigorous, and that are sometimes quite painful for the agency 
in question. And we have taken a number of steps to learn those 
lessons from the Clinton email investigation. There have been 
personnel moves, training improvements, policy improvements, 
all sorts of things that I laid out in great depth last summer 
in response to that investigation. And I would expect that we 
will take to heart in a very similar way whatever lessons are 
conveyed through the other Inspector General investigation, 
which is pending.
    But as to the perception, I think it is important for the 
American people to understand--and you alluded to it in your 
very helpful comments at the beginning--that we are talking 
about two investigations over about a 15-month period as 
opposed to the thousands and thousands of investigations that 
the FBI does to keep Americans safe each day. These 
investigations are conducted by 37,000 men and women that in my 
experience are brave, professional, rigorous, and thoughtful 
and I think deserve better than some of the commentary that has 
been out there.
    And so I appreciate your comments about the efforts in New 
Orleans where there have been some really remarkable efforts 
made, and I think it would be helpful for everyone to take a 
deep breath and remember that we have had more than two 
investigations over the last 2 years.
    Senator Kennedy. Thank you, Mr. Chairman.
    Senator Moran. Senator Coons.
    Senator Coons. Thank you, Chairman Moran, Ranking Member 
Shaheen.
    Thank you, Director Wray. It is great to have you before us 
today.
    And I want to start by thanking you and the 37,000 men and 
women of the FBI for their service and devotion to our country 
and Constitution and the way that they work every day to keep 
Americans safe regardless of race, creed, or political 
leanings. This work, as we both know, is often dangerous and 
difficult and under-appreciated and it saves lives. And I think 
we need to do a better job here of recognizing the 
professionalism and dedication of the men and women of the FBI.
    They have recently made a real difference in my home 
community of Wilmington, Delaware, and in just the last 2 
months, the FBI in Delaware has worked with prosecutors and law 
enforcement to bring criminal convictions on fraud, bribery, 
cyber stalking, and narcotics cases. I am from one of those 
small towns like Little Rock where violence was spiraling out 
of control, and real and effective engagement by our FBI office 
has made a difference in combating that. I look forward to 
talking more about that.

                         ELECTION INTERFERENCE

    But let me first just--on election interference. I have 
been encouraged by the clarity with which you have said that 
foreign interference efforts continue, that you have no doubt 
that Russia will attempt to interfere again in our next 
election, that a campaign should immediately contact the FBI if 
offered dirt on an opponent by a foreign power, and that you 
have been in meetings with the DNI and with DHS about how to 
protect our next election.
    In your remarks, both written and spoken, for today's 
hearing, you highlighted the foreign influence task force you 
have created. What more resources do you need to bolster 
efforts like that task force to better protect our society from 
foreign interference and specifically our upcoming elections 
from foreign interference?
    Mr. Wray. Well, Senator, I appreciate the question and 
would be happy to talk about violent crime in Wilmington in 
particular also.
    On the foreign influence side, the Foreign Influence Task 
Force that I described--we basically put that together through 
existing resources with no additional help from Congress at 
that point. I think it was a significant success, but we view 
our adversary, in particular Russia in this context, as upping 
its game, and we are also expanding our efforts to look at 
other nation states as well.
    And the budget request that we have submitted asks for 
additional personnel and additional tools to help us get 
through the volumes and volumes of data. In that sense, this 
threat is not unlike a lot of the other threats that I have 
been describing through my testimony of the mountains of 
information that comes in. I cannot underscore this issue--you 
always hear about sort of the big data problem. We all hear 
about that phrase. Well, we have got the big data problem just 
like everybody else. And the need for speed, as matched up 
against the volume of data, is a real concern that I have. And 
so I think over the next few years and certainly with this 
budget, the more that this subcommittee can do to help us get 
the personnel and the tools and data analytics that we need, 
and the cyber tools that we need, that is the best way we are 
going to get ahead of this threat.
    Senator Coons. I look forward to supporting that request 
because I think you are hearing widespread concern that we do 
everything we can to ensure the integrity of our election 
system so that we do not face widespread doubts about that.
    Let me move to the State and local law enforcement 
partnership. I like your two plus two equals five, six, or 
seven synergy view.

                                  NICS

    NICS, the National Instant Criminal Background Check 
System, is a central tenet in protecting our country from those 
who would do us harm. You have said that in your written 
remarks, and I agree.
    Senator Toomey and I have introduced a bipartisan bill, the 
NICS Denial Notification Act that would require the Federal 
Government to notify State and local enforcement when someone 
lies and tries, when a person prohibited by law from purchasing 
a gun--a convicted felon, for example--goes into a gun store, 
tries to buy and is denied. There were about, I think, 103,000 
NICS denials last year that prevented people from buying guns 
who should not have to buy them.
    Could you do that without legislation? Could you just as a 
simple matter of a decision about partnership decide to notify 
State law enforcement every time someone tries to buy a gun who 
is a person prohibited? And if not, could I have your support 
for this legislation that I think is exactly the sort of better 
enforcement of laws on the books that help State enforcement 
that we ought to be able to do on a bipartisan basis?
    Mr. Wray. Well, certainly I share your concern about trying 
to make sure that we keep guns out of the hands of people who 
are legally prohibited from having them.
    I do know as to the legal question of whether we would need 
legislation to share information, I am enjoying the role of not 
being a lawyer right now for the first time in my career. So I 
will defer to the lawyers on the legal question.
    But I will say that I do know that anecdotally, because I 
see it come up in the context of investigations we have, that 
there are plenty of times where we do share denial information 
with partners--Federal, State, and local--on the ground in the 
context of existing investigations. And sometimes it is very 
useful information.
    As you say, I would be a little bit concerned about 
thinking through the resource burden. And this would, of 
course, resonate I would think in particular for you given the 
challenges in Delaware, of what that would mean for State and 
local law enforcement if they were suddenly bombarded with all 
that information, whether they would have the resources 
necessary to handle that flow.
    Senator Coons. I will just say in meetings with the police 
chiefs of my smaller cities and towns, they would welcome 
knowing when a resident of their community, who is prohibited 
from buying a weapon, has gone in to try and buy a weapon 
because that is an excellent predictor that they are then going 
to try and acquire a weapon some other way, probably for malign 
purposes.
    There are other States where it is State police who conduct 
the NICS background check, initial contact. So they are 
immediately notified of the denial. Then there are States like 
my own where that it is not the case, where it goes directly 
from the federally licensed firearm dealer back and forth to 
the NICS system. I am just trying to fix a small communication 
piece that I think really could help keep people safer.
    I know I am over my time.
    I would welcome hearing more from you, Director, about the 
partnership program, the PSP, that you reference and how we 
could strengthen resources for State and local law enforcement 
to benefit from the FBI.
    Thank you for your service.
    Senator Moran. Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Thank you, Director, for your service.

                           DOMESTIC TERRORISM

    I want to talk to you about domestic terrorism. I would 
like for us to get a better understanding of how the statistics 
are evolving. It seems to me we are getting better at reporting 
sort of white nationalist, white extremist both hate crimes and 
also terrorist events. And I am wondering whether you think, A, 
do we have an increasing domestic terrorism problem related to 
white extremism or whatever word you would choose to use.
    Mr. Wray. I think we assess that domestic terrorism--well, 
let me put the hate crime category to the side for a second, 
although you are exactly right, that there is a lot of blurring 
between them, sometimes for good reason.
    But on the domestic terrorism side, what I would say is 
that we assess that domestic terrorism, including domestic 
terrorism conducted by people subscribing to some sort of white 
supremacist ideology, is a serious, persistent threat. I do not 
know that we have seen a noted increase in the threat, but make 
no mistake, it is a real serious threat and it is persistent. 
And we have a lot of investigations, somewhere a little short 
of 1,000 that are domestic terrorism, not just that particular 
type of domestic terrorism but all domestic terrorism.
    Senator Schatz. The question I have has to do with the 
allocation of resources, the way you organize your desks, the 
way agents are assigned. And I just want to be reassured that 
the resources are allocated according to the risk. And it seems 
to me that the way the Congress has appropriated money, the way 
the political ecosystem has evolved since 9/11 and for lots of 
very good reasons and sound reasons that the focus has been on 
external threats, jihad-inspired terrorism. But to the extent 
that the data demonstrate that white nationalism is something 
approaching about half of the terrorist events, depending on 
whether you count individual instances or total number of 
deaths, can I be confident that the way you organize your desks 
and the way you allocate resources are proportional to the data 
as it comes in and if the data shows something new, that you 
can reallocate the resources?
    Mr. Wray. Certainly we have a whole Threat Review and 
Prioritization process that is designed to help us do the kind 
of calibration you are talking about. I would say that we very 
aggressively treat domestic terrorism as a priority through our 
Joint Terrorism Task Forces. And in fact, I think last year, 
just as one imperfect measure of it, I think we had more 
domestic terrorism arrests than we did international terrorism 
arrests.
    Now, in addition to what we do for the terrorism side, as 
you mentioned, there is the hate crime side which we do through 
our criminal programs. And so there is a lot of times where 
some of the same kinds of activity can be tackled through the 
resources we use on that side too.
    Senator Schatz. Thank you.

                           FACIAL RECOGNITION

    Let me get to facial recognition. I think it has got lots 
of potential. But the GAO had a study that recommends that the 
Director conduct tests and to take steps to determine whether 
systems used by external partners are valid. There was a recent 
study cited by the ``New York Times'' that says that women of 
color have an error rate--a 35 percent increase in the error 
rate in terms of these facial recognition databases and 
softwares. And I am sort of a mixed mind here. I think this 
provides great potential for you to catch bad guys, but only if 
the software works.
    And I have two worries. First, if the software is not 
ready, that is one thing. Second, if you use third party 
contractors and the algorithm is proprietary and you do not 
know how they are determining who is a risk and who is not, 
then I think the FBI has an obligation to take a breath and try 
to figure out how reliable this facial recognition software is.
    Can you speak to facial recognition generally and the worry 
that sort of garbage in/garbage out that these approaches can 
enhance existing uneven enforcement of the law?
    Mr. Wray. Well, with the caveat up front that I have not 
had the chance to review the newspaper article that you 
described or the GAO report that summarizes, I would say that 
facial recognition--kind of like you, I view it as a very 
exciting technology with a lot of promise. I also view it as 
something that we have to approach thoughtfully to make sure 
that it is just like any exciting technology, it is not 
misused.
    I sometimes say that with all the technology that is out 
there right now that is changing so fast, I usually have two 
reactions. Every time there is a new technology, I think, wow, 
we can do that. And then my second reaction is, oh, no, 
somebody else can do that. And you know, this is one of those 
tools that is in that regard.
    But I think there is a lot of promise to the technology in 
terms of what it can do to help solve crimes and keep people 
safe, and we would be happy to arrange a briefing for you in a 
little more detail.
    Senator Schatz. I will do that.
    In the interest of time, I will reduce the follow-up to the 
record. But I do want to understand your response to both the 
``New York Times'' article and the GAO report. Thank you.
    Senator Moran. Senator Schatz, thank you.
    Senator Rubio.
    Senator Rubio. Thank you.
    Thank you, Director, for being here.

                    NOTIFICATION OF CYBER INTRUSION

    And I am not going to ask you to comment about any specific 
cases, especially in this setting, matters that are highly 
compartmented. But I do want to point to things that are in the 
public record.
    The first is May of last year, the Senate Intelligence 
Committee, as part of our review of the 2016 election, in an 
interim reported stated that there had been a number of 
counties across the country in which foreign actors had been in 
a position, had they wanted to, to change and influence voter 
databases. They did not do so, but they were in a position to 
do so. That was disclosed.
    As you can imagine, a few weeks ago when the Mueller report 
came out, it had a brief, but obviously significant mention 
that at least one Florida county had been impacted by an 
intrusion, and it has elicited, as you can imagine, across our 
67 counties a tremendous amount of attention, to say the least. 
And I know that you have heard from both my colleague, Senator 
Scott, and from our new Governor, Governor DeSantis.
    So on the one hand, I explain to people we are always 
trying to protect our methods and sources. And so sometimes by 
revealing information, you have revealed how you learned about 
it and thereby compromise the ability to learn about it in the 
future.
    On the other hand, you can imagine if you are a county 
election official anywhere in America--I am not talking 
specifically about Florida--and you hear that you may have been 
potentially one of those impacted and no one has told you that 
directly, it puts them in a very difficult position.
    So just thinking through how can we handle a matter--and 
these are just hard things. I know sometimes it is not entirely 
the FBI's decision to make or any other agency, for that 
matter. But I think I have described sort of, just writ large--
let us just back up from Florida and just say writ large. That 
is a tough spot to be in other than to tell people if you do 
these things, you should be fine, but we cannot tell you who it 
is that has been impacted because we will lose the ability to 
learn about it in the future.
    Is there any thought being given to how to confront this in 
the future, the balance between notifying a county or a victim 
of this sort of intrusion and the ability to protect our 
methods and sources?
    Mr. Wray. So I think you have identified a particularly 
vexing problem. As you have, I think, correctly framed, it is 
something that we in the intelligence community struggle with 
quite a bit. We have tried to put in place a fairly specific 
protocol that is intended to guide a thoughtful and disciplined 
decisionmaking process for when we notify victims of a cyber 
attack, whether it is in the election context or anything else. 
And it goes through a lot of the considerations that would 
apply. And you anticipated some of them in your question. 
Sometimes the information is a particularly sensitive source or 
method, and if we lose or jeopardize that source or method, 
then we lose the ability to even better protect, sometimes, 
even the same victim. Sometimes the information comes from a 
trusted foreign liaison partner, and it is not our decision to 
make about whether to share the information. Sometimes it 
affects an ongoing criminal investigation and might jeopardize 
that. So there is a whole host of things.
    We also look at things like how actionable is the 
information. Is the information we have in a form where 
somebody could even do something with it? And so sometimes 
those factors come to our attention and we try to wrestle 
through them as best we can.
    I will say that sometimes we also strike a middle ground. 
We may try to provide more general information to help people 
take appropriate cyber hygiene steps. It is not a perfect 
solution, but it is a solution that intends to kind of have it 
a little bit both ways, where we are sharing information that 
allows people to take some steps while still protecting some of 
those sensitive sources of information.
    But this is an issue that we all in the intelligence 
community struggle with not just in an election context but in 
a lot of other settings as well.

                            PARKLAND REVIEW

    Senator Rubio. One final question on a different topic. 
Fifteen months ago, as you know, the tragedy took place in 
Parkland. And as you have acknowledged and others, the FBI made 
some mistakes. There were clear tips that were disregarded 
about how the shooter was a threat to the lives of others. 
There was a commitment to a review of the policies and 
procedures, but so far, there has not been anything public in 
terms of accountability aside from acknowledging the mistakes. 
So what is the status of that review?
    Mr. Wray. So we have done not one, but two fairly in-depth 
reviews out at our call center, which is where the key activity 
occurred. We have changed training. We have also changed 
policies out there. We have increased significantly the amount 
of resources that are out there. We have increased the amount 
of oversight. We have built certain technology tools to 
improve--sort of put redundancies in the process to ensure that 
the right kinds of things are caught. There is a whole host of 
things we have done.
    In addition, I have met with families of some of the 
victims, as has the Deputy Director. And we are committed to 
trying to get this right.
    We have now recently--and this is very recent information, 
but I have now put in charge of that whole division out there 
in West Virginia one of our senior most executives to run that 
division. He is somebody that we personally enlisted to really 
bring the right level of maturity and sophistication to running 
that whole division. I think that is a measure of how important 
this is to us.
    Senator Moran. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Director, thank you very much for attending and your 
service.

                            SPECIAL COUNSEL

    Sir, you know, as I look and see a troubled world and a 
divided country, the only thing that separates us from other 
countries in the world is the rule of law. People must believe 
they are going to be treated fair no matter who you are, what 
rung of life you might be on.
    After Mr. Barr's appearance last week, there were still 
some unanswered questions, but the one thing that was asked of 
him, would he have a problem with Mr. Mueller appearing, and he 
says, no, he did not have a problem with that at all.
    Do you think that would be helpful to have Mr. Mueller to 
appear before Congress, or would you have a problem with that?
    Mr. Wray. Well, I will not purport to speak for Special 
Counsel Mueller. I have had nothing but good experiences 
working with him over the years and nothing but good 
experiences working with the current Attorney General.
    Senator Manchin. Do you think it would be helpful if he did 
appear before us so we could clear up--it would be helpful to 
me as someone who voted for Mr. Barr and leaving a lot of 
questions unanswered just to hear Mr. Mueller's report and 
basically from himself.
    Mr. Wray. You know, that is really a decision between the 
Special Counsel, the Department, and the Congress.
    Senator Manchin. Also on redaction, the report was 448 
pages. When these reports come out, what would you consider an 
average percentage of that being redacted usually because of 
ongoing investigations, things that might still be pending?
    Mr. Wray. I am not sure that I have ever heard of a sort of 
average percentage of redaction.
    Senator Manchin. This was about 10 percent. This was one 
was 44 pages. So I am saying does that seem high or there is an 
awful lot going on still yet we do not know about?
    Mr. Wray. Well, I think the Special Counsel report does 
identify that there have been a number of referrals, and there 
are a number of ongoing investigations that grew out of that.
    The figure, 10 percent--I do not know if that is the right 
figure, but I will take your word for it. Certainly I have seen 
lots of documents submitted to Congress--and you probably have 
too with your time on the Senate Intelligence Committee--that 
have been much more heavily redacted than that.
    Senator Manchin. Right.

                                OPIOIDS

    Sir, I am going to switch to opioids right now. The State 
of West Virginia has been extremely hard hit, as you know. We 
lead the Nation as far as the deaths per 1,000. It is just a 
horrendous situation, and the millions and millions and 
millions of pills that the companies basically from the 
manufacturers to the distributors have poured into my State is 
unbelievable.
    We have one little town, Kermit, West Virginia, where over 
9 million pills were shipped in. There are 392 people who live 
in that town. You can do the math. It is thousands and 
thousands per person. It makes no sense at all.
    But when there was a deal made basically and they have an 
agreed upon amount that they are going to pay restitution, we 
are not able to get--and especially if they do not admit to 
guilt towards the wrongdoing, we cannot get the information. 
Basically at that time, the courts say, well, that belongs back 
to the company or we will destroy them. We have no public 
records. And we know the intent cannot be for a health outcome 
when you are sending 9 million pills to a town of 392 people.
    Is there any way that that can be stopped or we can reverse 
that so we can get some information on the intent of what they 
are doing and how to stop that?
    Mr. Wray. So I am not familiar with the specific impediment 
that you are describing. I would be happy for my staff to take 
a closer look at that.
    Senator Manchin. If you could look at it. We have one right 
now with McKesson. McKesson basically settled with the State of 
West Virginia for $37 million. And basically they sent 5 
million pills to this little town, as they were one of the 
biggest distributor of pills all over my State. And to let them 
off is just absolutely criminal as far as in my mind from what 
they did to our State.
    So I am trying to get the information. I cannot get it 
since they did not have to prove any wrongdoing when the 
settlement was made, and it put us in a really onerous position 
to ever stop them from doing it, to continue to do it. If you 
could help me with that, I would be most appreciative.
    Mr. Wray. Well, I would be happy to take a look at it. Like 
I said, I am not familiar with the specific issue. I do know 
that we have done a big surge on the opioid issue and 
specifically on the provider part of it in your region. We just 
had a huge takedown.
    Senator Manchin. I know you all have been there and I 
appreciate it.

                           FOREIGN INVESTMENT

    My last question is going to be on CFIUS, sir. From CFIUS, 
what we have--and maybe from your perspective, we have an awful 
lot of assets that are not required to go through CFIUS for the 
United States. So I will give you an example, propane, ethane, 
butane, all the different building blocks to manufacturing. 
Foreign investments can buy them up and gobble them all up, and 
we have no recourse whatsoever.
    So should most Committee on Foreign Investment in the 
United States filings remain a voluntary process, or can we 
change that to make it mandatory? Reciprocating is what I am 
looking for. Basically we cannot go to China and own the assets 
that they own in America.
    Mr. Wray. So I do think that the CFIUS process is not only 
indispensable where it applies, but the Congress--and I am 
grateful to the Congress for this--recently expanded and 
improved the effectiveness of CFIUS.
    But I think you are also exactly right that the ability to 
channel foreign investment into this country with an improper 
motive is something that is a real challenge. And so while a 
number of loopholes were closed with the recent reform that 
occurred to CFIUS, I think we are going to have to keep looking 
for more ways to close more loopholes because I think this is 
going to be a bigger and bigger problem for us as a nation.
    Senator Manchin. Thank you.
    Senator Moran. Director thank you very much.
    Senator Capito. We need to be done here by 11:00 in order 
to have time for a classified briefing. So, again, if we can 
shorten our questions and answers.
    Senator Capito. All right. Thank you, Mr. Chairman.
    And thank you, Director Wray, for being here.

                            BUDGET INCREASE

    I wanted to begin by thanking you for something that is not 
in the budget. In the past, the budget has called for 
rescissions that would impact the work at CJIS and the men and 
women in our Clarksburg facility in Clarksburg, West Virginia. 
So thank you for not calling for that.
    But shifting focus to something that is in the budget, 
there is a $4 million increase for additional positions in 
Clarksburg. Can you describe what kinds of works they are going 
to be doing?

                       IMPACT OF CJIS OPERATIONS

    Mr. Wray. Well, certainly we feel both excited about the 
growth that we are trying to have out at CJIS and concerned 
about the need to address all the different functions that 
occur out there. In some ways, I think CJIS is one of those 
divisions, that probably has the most impact on the American 
people and that people know the least about. You know, between 
the 10 million times a day that we are providing criminal 
justice information to State and local law enforcement, between 
the 26 million gun checks that NICS did last year, between the 
190,000-something fingerprints that they processed through NGI 
every day, through the call center, NTOC, which I think had 
over a million tips between calls and emails last year--we need 
to kind of keep pace. The volume just keeps growing. And so the 
positions and the other allocations in the budget I think will 
be important to helping us do that.
    Senator Capito. Let me ask a follow-up on that. I know that 
I went to a ribbon cutting out there, which was an agreement 
between the Department of Justice and the Department of Defense 
to sort of merge some of their--well, not merge but to use 
resources together out there. How has that been progressing? I 
do not know. From your standpoint, how has that been working, 
that partnership?
    Mr. Wray. I think it has been working pretty well, but I 
will confess I have not gotten an update recently on that.
    Senator Capito. All right.
    You know, we did pass the Fix NICS Act, and I am wondering 
how the implementation of that has gone in terms of being more 
precise with the data and closing some of those loopholes that 
we did in Fix NICS.
    Mr. Wray. Well, certainly I think we get better all the 
time in terms of our ability to keep pace with the volume of 
gun checks that we have to do. I do think it is the reality. I 
think we had almost the highest number of checks we had to run 
in history last year, maybe second highest in history.
    So I have actually gone out and visited the folks there. I 
have sat down and put the headset on so I could listen to 
experience what it is like to be doing those gun checks as a 
NICS operator. So it is incredibly important work that they are 
doing.
    Senator Capito. Thank you.

                     TRANSNATIONAL ORGANIZED CRIME

    I would like to follow up again on Senator Manchin's 
question, both of us being from West Virginia. On the fentanyl 
and heroin, I know that you have put a lot of resources into 
this. I know that you have worked on closing up the 
prescription loopholes and going after providers.
    The situation at the southern border is such that, I mean, 
I feel there is still a proliferation of illegal drugs coming 
through our ports of entry. Do you work with the Border Patrol 
to try to--I know you get into transcontinental or trans-
country cartels and all of that. How do you information share 
so that we can prevent this? Because this is killing people.
    Mr. Wray. Well, we have a number of task forces where we 
work closely with Border Patrol agents. Certainly this is a 
problem that requires both skill sets and both agencies' 
expertise. I come back to my two plus two to get five or six 
paradigm. We focus kind of on dismantling the enterprises, but 
they have enormous eyes and ears on the ground. And I think we 
have a great relationship with the Border Patrol, and we are 
incredibly grateful for the very hard job they do.
    Senator Capito. Are you able to stay ahead of them, though? 
I mean, it seems like they are, obviously, very creative, very 
wealthy on the other side. I am talking about the cartels. What 
kinds of resources are you lacking that you think you can break 
these up so that we can stop this illegal trafficking?
    Mr. Wray. Well, we always need more bodies and more tools. 
The Transnational Organized Criminal activity that we see now 
is not just the drug trafficking. It has diversified into all 
kinds of other activity. There, like in the other threat areas 
I have described, there is a data analytics piece of it. In 
order for us to be more agile, we need to work in closer 
partnership with the countries that are south of us in order to 
try to make sure that they take their share of the 
responsibility. We have had some great successes in that regard 
in Central America in particular, you know, in El Salvador and 
Guatemala and Honduras.
    Senator Capito. Thank you.
    Thank you, Mr. Chair.
    Senator Moran. Senator Van Hollen, the most patient of our 
Members.
    Senator Van Hollen. Thank you, Mr. Chairman.
    And welcome, Director Wray. And thank you and the men and 
women of the FBI for all you do for our country.

                      FOREIGN INTELLIGENCE THREAT

    We have had a lot of talk this morning about Russian 
interference in our elections. You and the Intelligence 
Committee have been very clear the Mueller report emphatically 
puts the exclamation point on it that Russians interfered in 
2016.
    You have also said recently that Russian interference in 
the previous elections was, quote, just a kind of dress 
rehearsal for the big show in 2020. And it seems to me if we 
know that, we should be doing everything in our power to both 
prepare for it but also try to deter it. And we should try to 
harden our systems. We should deal with malign influence. We 
should try to prevent the cyber hacking.
    But would you agree that the best defense would be an 
ability to deter that kind of interference in the first place? 
In other words, if Putin understood that the costs of 
interfering in our election outweigh the relatively low costs 
he is facing right now, should we explore that option?
    Mr. Wray. Well, certainly I think the best part of a 
defense against a foreign intelligence threat like malign 
foreign influence includes an offensive capability. Sometimes 
people say the best defense is a good offense. There is a 
degree to which that applies in this setting. A lot of what 
would be appropriate there is not the kind of thing that we 
would be discussing in an open hearing. But certainly we work 
jointly with others. And I will say that I appreciate your 
reminding me of my recent comments on this topic. We have 
significantly increased, again just based on resources we 
already have, not new resources, our own footprint on foreign 
influence. So far from sort of stepping back after the midterms 
and saying, thank goodness that is over, we have actually 
stepped it up a notch and tried to figure out, okay, how do we 
learn the things that worked well in 2018 and kind of get ready 
for 2020.

                               DETER ACT

    Senator Van Hollen. I got it. So I think--and you hinted at 
it. Look, my personal view is we should be very proactive when 
it comes to cyber offense. But I am also talking about a piece 
of legislation Senator Rubio and I have introduced called the 
DETER Act, which lays out out front very big penalties, sticks 
that the Russian economy would face if we catch them 
interfering in our elections going forward. So you know up 
front, if you are Putin, if you interfere, if we catch you, you 
are going to see these penalties.
    Secretary Pompeo was in front of one of the appropriations 
subcommittees recently. I asked him if he would support 
something like that going forward. His answer, quote, I would. 
I know the outlines of the DETER Act and conceptually I think 
it makes sense.
    Do you agree and can you work with us on refining that 
legislation?
    Mr. Wray. We would be happy to work with you on the 
legislation and see if there is operational impact information 
we can share that would be useful to you as you tweak or move 
forward. Certainly sanctions are a very important tool in the 
toolbox that can, should be, and has been in some instances 
applied in this particular space that we are talking about 
right now. So happy to work with you.
    Senator Van Hollen. The idea here is instead of acting 
after the fact, instead of trying to apply sanctions after the 
fact, you make it clear up front what sanctions will 
automatically come down to try to influence behavior.
    You know, the FBI was helpful in Maryland last year on a 
number of fronts, but specifically identified that one of the 
vendors that oversaw some of our elections infrastructure was 
actually controlled by a company where a Putin oligarch had a 
controlling interest. The good news is because we monitored 
that, with your help, there was no interference in Maryland's 
specific election.
    But Senator Collins and I and others have introduced 
legislation making it clear that no part of U.S. elections 
infrastructure, including at the State level, should be 
controlled in whole or in part by a foreign adversary. Does 
that sound like common sense to you?
    Mr. Wray. I think you have put your finger on a permutation 
of what we sometimes call the supply chain threat, which 
applies not just to Russians but other foreign adversaries. And 
it is a real concern for this country.
    I appreciate your comments about the good work in 
Baltimore. I have actually been out to visit that office twice 
just in my short time on the job, met with all the employees, 
and met with our community partners there as well. And there is 
really, really exciting, great work being done by that office 
that I am very proud of.
    Senator Van Hollen. Just in conclusion, do you agree that 
we should prohibit foreign adversaries from owning or 
controlling any part of our elections infrastructure?
    Mr. Wray. Well, certainly as framed, it makes pretty good 
sense to me. I would have to look at the particulars of any 
legislation certainly.
    Senator Van Hollen. All right. Look forward to working with 
you.
    Senator Moran. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Director Wray, I think you are doing a great job. Tell 
everybody in your organization we appreciate what they do for 
the country.

                        IMPACT OF SEQUESTRATION

    Sequestration. If it kicks back in, what kind of effect 
would it have on the FBI?
    Mr. Wray. Senator, if sequestration were to kick back in, I 
think in short it would be devastating.
    Senator Graham. We would be less safe as a nation.
    Mr. Wray. I think it would have a negative impact on the 
safety of the American people.
    Senator Graham. All the things that we have been talking 
about here would be undermined in terms of the role you play.
    Mr. Wray. Virtually all of them, yes.
    Senator Graham. When it comes to deterring Russian 
interference in the American election, is it working, or should 
we do more?
    Mr. Wray. Well, I tend to be dissatisfied by nature. So I 
always think we can do more and should do more on pretty much 
every threat we have described here.
    Senator Graham. Do you think the Russians have gotten the 
message or are there still more messages to be sent?
    Mr. Wray. I think there are still more messages to be sent.
    Senator Graham. Other than Russia, what nation state should 
we be worried about in 2020?

                           FOREIGN INFLUENCE

    Mr. Wray. Well, I think there are a number of our 
adversaries--China, Iran, North Korea--who all have different 
ideas about foreign influence. They will pursue different tools 
in their toolbox. But I think all of those adversaries, just as 
you and I have discussed in the past, are things that we need 
to be worried about across the foreign influence front.
    Senator Graham. Okay. So sequestration would be 
devastating. We need to send more messages to Russia about what 
they have done and will do, not less. You gave us a list of 
other countries to worry about.
    Are you familiar with the two terrorists called the Beatles 
that are in custody in Syria by the Syrian Democratic Forces?
    Mr. Wray. I am. I mean, not every detail about it but 
certainly familiar.
    Senator Graham. These are two of the four terrorists 
described as the Beatles because they were British and they 
were working with ISIS. Two of them have been captured. They 
are accused of being involved in the beheading of Mr. Foley, an 
American citizen, and some others.
    Could you give this subcommittee a status on those cases, 
what the plan is in terms of bringing them to justice? You do 
not have to do it here in an open hearing, but let us know. I 
think all of us want to make sure these people do not break out 
and they are brought to justice.
    Mr. Wray. Well, I think, as you anticipated, there is 
probably not a whole lot I can say in this setting on that. I 
will say that this is a very important case to us, to me 
personally. I have actually met with a number of the family 
members of some of the victims. I think this part is public. We 
certainly are in appropriate coordination with our British 
counterparts about whether or not there is a way to ensure that 
these folks can be brought to justice. But if there is one 
thing the FBI is known for it is not giving up.
    Senator Graham. Well, I appreciate that. And please, I know 
you will not give up.
    Thank you, Mr. Chairman.
    Senator Moran. Senator Graham, thank you for joining us.
    Director Wray, anything you would like to add in this open 
setting to any of the questions, expand any of your answers, or 
anything we have missed that you would like to highlight for 
us?
    Mr. Wray. Not that I can think of. We covered a lot of 
ground.
    Senator Moran. Director, thank you.

                      NEW LAW ENFORCEMENT OFFICERS

    On Friday of this week, I will give a graduation address at 
the Kansas Law Enforcement Training Center. Would you care to 
share any thoughts you have about what should be said to 60 new 
men and women who are becoming members of the law enforcement 
community?
    Mr. Wray. I think I would tell them that they are 
undertaking not an ordinary job but a calling, that it takes a 
very, very, very special kind of person who is willing to put 
his or her life on the line to protect complete strangers, and 
that the whole country is grateful for their service.
    Senator Moran. I will try to deliver that message with 
those kind words.

                         CONCLUSION OF HEARINGS

    If there are no further questions in this morning's 
hearing, the open portion of our hearing, Senators may submit 
additional questions for the subcommittee's record. We request 
the FBI respond within 30 days.
    The subcommittee now stands in recess and we will reconvene 
momentarily in a closed and classified session to hear from 
Director Wray in Senate Visitors Center 217. Thank you.
    [Whereupon, at 11:00 a.m., Tuesday, May 7, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
